<html>
<title> - ROUNDTABLE PERSPECTIVES ON PROTECTING THE ELECTRIC GRID FROM AN ELECTROMAGNETIC PULSE OR GEOMAGNETIC DISTURBANCE</title>
<body><pre>[Senate Hearing 116-78]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 116-78
                                                     
                PERSPECTIVES ON PROTECTING THE ELECTRIC
     GRID FROM AN ELECTROMAGNETIC PULSE OR GEOMAGNETIC DISTURBANCE

=======================================================================

                               ROUNDTABLE

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2019

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-770 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
                Michelle D. Woods, Senior Policy Advisor
              Colleen E. Berny, Professional Staff Member
                     William G. Rhodes III, Fellow
               David M. Weinberg, Minority Staff Director
           Julie G. Klein, Minority National Security Advisor
Christopher J. Mulkins, Minority U.S. Government Accountability Office 
                                Detailee
                  Jeffrey D. Rothblum, Minority Fellow
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     2
    Senator Rosen................................................    18
    Senator Toomey...............................................    26
Prepared statements:
    Senator Johnson..............................................    45
    Senator Peters...............................................    47
    Senator Scott................................................    49

                               WITNESSES
                      Wednesday, February 27, 2019

Hon. Karen Evans, Assistant Secretary, Cybersecurity, Energy 
  Security, and Emergency Response, U.S. Department of Energy....     3
Brian Harrell, Assistant Director, Infrastructure Security 
  Division, U.S. Department of Homeland Security.................     4
Nathan Anderson, Acting Director, Homeland Security and Justice 
  Team, U.S. Government Accountability Office....................     5
Joseph H. McClelland, Director, Office of Energy Infrastructure 
  Security, Federal Energy Regulatory Commission.................     6
George Baker, Ph.D., Professor Emeritus, James Madison University     7
Scott Aaronson, Vice President for Security and Preparedness, 
  Edison Electric Institute......................................     9
Randy Horton, Ph.D., Senior Program Manager, Grid Operations and 
  Planning, Electric Power Research Institute....................    10
David Roop, Director, Electric Transmission Operations and 
  Reliability, Dominion Energy...................................    11
James Vespalec, Director, Asset Planning and Engineering, 
  American Transmission Company..................................    12
Justin Kasper, Ph.D., Associate Professor of Space, Science, and 
  Engineering, University of Michigan............................    12
Caitlin Durkovich, Director, Toffler Associates..................    13

                     Alphabetical List of Witnesses

Aaronson, Scott:
    Testimony....................................................     9
    Prepared statement...........................................    85
Anderson, Nathan:
    Testimony....................................................     5
    Prepared statement...........................................    58
Baker, Ph.D. George:
    Testimony....................................................     7
    Prepared statement...........................................    73
Durkovich, Caitlin:
    Testimony....................................................    13
    Prepared statement...........................................   124
Evans, Hon. Karen:
    Testimony....................................................     3
    Prepared statement...........................................    50
Harrell, Brian:
    Testimony....................................................     4
    Prepared statement...........................................    55
Horton, Ph.D. Randy:
    Testimony....................................................    10
    Prepared statement...........................................    96
Kasper, Ph.D. Justin:
    Testimony....................................................    12
    Prepared statement...........................................   119
McClelland, Joseph H.:
    Testimony....................................................     6
    Prepared statement...........................................    65
Roop, David:
    Testimony....................................................    11
    Prepared statement...........................................   108
Vespalec, James:
    Testimony....................................................    12
    Prepared statement...........................................   117

                                APPENDIX

Responses to post-hearing questions for the Record:
    Ms. Evans....................................................   129
    Mr. Harrell..................................................   136
    Mr. Anderson.................................................   146
    Mr. McClelland...............................................   149
    Mr. Baker....................................................   155
    Mr. Aaronson.................................................   161
    Mr. Horton...................................................   170
    Mr. Roop.....................................................   176
    Mr. Vespalec.................................................   187
    Mr. Kasper...................................................   191
    Ms. Durkovich................................................   200

 
                       ROUNDTABLE PERSPECTIVES ON
                    PROTECTING THE ELECTRIC GRID FROM
          AN ELECTROMAGNETIC PULSE OR GEOMAGNETIC DISTURBANCE

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:31 p.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Peters, Hassan, Harris, and 
Rosen.
    Also present: Senator Toomey.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good afternoon. I guess I will gavel in 
the roundtable.
    First of all, thank you all for taking the time to come to 
participate in this roundtable, for your thoughtful testimony. 
I have read all of it. I have read some of it a couple of 
times.
    I reached out to a couple of you, as well, trying to do 
some summaries.
    Because we have so many participants--normally, we would 
offer about 5 minutes' worth of opening statements, but what I 
think we want to do is keep it to 2 minutes. So be thinking 
right now about the top priorities of the points you wanted to 
make in this roundtable, and then I told my staff to keep my 
time open. I know one participant is going to have to catch a 
flight, but I am going to sit here until my questions are 
answered, until my curiosity is satiated.
    I would ask that my written statement be entered in the 
record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 45.
---------------------------------------------------------------------------
    The only point I want to make is I have been working on 
this issue now for probably 6 years, and the level of 
frustration is hard to describe.
    The threats I believe this Nation faces with any kind of 
high-altitude nuclear explosion causing electromagnetic pulse 
(EMP) or a high-intensity solar storm in terms of geomagnetic 
disturbances (GMD) and the threat that poses to our 
infrastructure and literally our very way of life, it is just 
hard to overstate.
    I think, certainly, before I really started delving into 
this, I was like most Americans, either largely unaware or I 
heard about this and go, oh, it is just science fiction. That 
would never happen. We are not going to see Mad Max and 
Thunderdome, OK?
    The frustration is there is such a broad spectrum of 
opinion here. I am not an electrical engineer. I am not a 
technical expert on this. I am an accountant. I am a business 
guy, but I have had that process of solving problems, which is 
gathering information, doing root-cause analysis, properly 
defining the problem, trying to establish achievable goals. 
What drives me nuts about this is nobody agrees on the 
information. You have really smart people, and there is a broad 
spectrum.
    So what I find interesting about this roundtable is I think 
we have some really good testimony. I think we can zero in on 
some action items so that we can hopefully establish some 
achievable goals.
    By the way, I am talking about actionable achievable goals. 
We have for far too long talked about developing a strategy, to 
develop a strategy, to develop a plan. ``Let us do more 
research,'' and then we just elongate the time period before we 
actually start doing something concrete to start mitigating 
what could be a horrific catastrophe. I never want to be 
sitting here in the dark saying, ``I told you so.'' I want to 
start taking action as quickly as possible.
    I want to thank Senator Peters and Senator Rosen for 
showing up; I thank Senator Toomey, not on our Committee. I 
want to thank Senator Murkowski. Most of the law that we would 
have to write would probably come under her jurisdiction, so I 
hope her staff is here.
    We have to work together collaboratively on this thing. We 
have to find the areas of agreement to address what again would 
just be a cataclysmic-type event, either space weather or the 
growing threats from some of these rogue States that have 
probably the capability of detonating something that could 
cause a lot of harm.
    So, with that, I will turn it over to Senator Peters before 
we let all of you go through, and we will just go around the 
table, ask you to state your name, what is the organization 
that you are representing, and then just kind of hit your high 
points. Then it is going to be a free-for-all. We are not going 
to do this normally, where it is 7 minutes or whatever, because 
otherwise it becomes too disjointed. I want to be able to 
follow a line of questioning, the points being made in somewhat 
logical order.
    With that, Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Well, thank you, Chairman Johnson. I will 
be brief as well so we can get to hearing the testimony here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appears in the 
Appendix on page 47.
---------------------------------------------------------------------------
    I could not agree more with Chairman Johnson that this is a 
topic that we need to explore.
    I have been focused on one aspect of that, which are the 
GMDs, which if you look at whether or not we have an EMP or a 
GMD event, the one thing about GMD, I think it is not a 
question of if. It is just when. We know that they have 
occurred. We know that they have been significant in the past. 
They existed before we were all interconnected in the Internet 
and with elaborate grids.
    If we have another event like Carrington in the 1850s, it 
will be much different today than it was back then. I know Dr. 
Kasper will be talking about that. I have worked with Dr. 
Kasper on this issue for a while, and my friends at the 
University of Michigan in the Heliophysics Department and 
others have been big advocates for doing something and actually 
having action. That we cannot just sit back and not look at 
this. This is something that will come eventually, and it could 
be absolutely catastrophic if we are not prepared for that.
    In order for us to move forward, though, we have to get 
everybody on the same page. We have to make sure we all agree 
on what the facts are and we all agree on the risks associated 
with GMD events or other events, and that we can write some 
meaningful legislation.
    I did write legislation in the past, the Space Weather 
Research and Forecasting Act. That has now passed the Senate 
twice, which is great. It has not passed the House, 
unfortunately. In this place, you need to have both, and we are 
hoping that what we get out of this hearing will give us some 
further momentum to get that Act first. Certainly, that bill is 
not the end-all, but it gets us on a track where we can start 
coordinating activities between all of the various government 
agencies and making sure that data is being provided to those 
who need to see the data as a result of solar activity.
    It is a meaningful step forward, but we have to do a whole 
lot more. But in order to get there, the opinions and the facts 
and the counsel that we get from all of you here is going to be 
absolutely critical.
    Thank you for being here today. I look forward to a good 
discussion.
    Chairman Johnson. We will start with Karen Evans. She 
currently serves as the Assistant Secretary for the Office of 
Cybersecurity, Energy Security, and Emergency Response (CESER) 
at the U.S. Department of Energy (DOE).
    We have a little 2-minute timer and just trying----
    Ms. Evans. I am ready.
    Chairman Johnson. Pardon? You are ready, OK. I have the 
gavel.

    TESTIMONY OF HON. KAREN EVANS,\1\ ASSISTANT SECRETARY, 
 CYBERSECURITY, ENERGY SECURITY, AND EMERGENCY RESPONSE, U.S. 
                      DEPARTMENT OF ENERGY

    Ms. Evans. OK. Thank you, Chairman and Ranking Member 
Peters, and Members of the Committee. I appreciate the 
opportunity to discuss the risks posed.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Evans appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    DOE's role in addressing energy sector risks and energy 
sector security is well established. From the Department's role 
in nuclear security through the National Nuclear Security 
Administration (NNSA) to the ground-breaking grid modernization 
research at our National Laboratories, DOE has the expertise 
and the relationships to support the energy sector and to help 
protect its critical infrastructure in coordination with the 
Department.
    I would like to highlight just a few of our ongoing 
projects in this area, which include improving unclassified E3 
waveforms, code and databases, to be able to share EMP effects 
with our partners; enhancing the Nation's EMP and GMD 
capabilities through the Center for EMP and GMD Simulation, 
Modeling, Analysis, Research, and Testing (CE-SMART); 
implementing a pilot project to field deploy and evaluate 
technologies to mitigate the effects of GMD and the E3 from the 
EMP on the electric grid.
    We also plan to develop a hardening and resilience road map 
this year, specifying what we can and should be doing, working 
with our industry partners with available resources to deploy 
technologies to protect critical components, equipment, and 
systems on the electric grid from EMP and GMD effects and 
impacts.
    DOE is fully committed to help forging the grid of the 
future that will be more resilient to all hazards, including 
EMP and GMD. Continued progress in the grid modernization is 
vital to help us protect the grid from these impacts.
    I appreciate the opportunity to be here with the Committee 
to discuss the effects of this and participate in the 
roundtable, and I applaud your leadership in this area.
    Chairman Johnson. Thank you, Ms. Evans. You have set a good 
example for everybody else. [Laughter.]
    The next witness is Brian Harrell. He currently serves as 
the Assistant Director of the Infrastructure Security Division 
at the U.S. Department of Homeland Security (DHS). Mr. Harrell.

      TESTIMONY OF BRIAN HARRELL,\1\ ASSISTANT DIRECTOR, 
 INFRASTRUCTURE SECURITY DIVISION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Harrell. Chairman Johnson, Ranking Member Peters, and 
Members of the Committee, good afternoon, and thank you for the 
opportunity to discuss the Department of Homeland Security's 
ongoing efforts to secure our Nation's critical infrastructure 
against threats from electromagnetic pulse and geomagnetic 
disturbances.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Harrell appears in the Appendix 
on page 55.
---------------------------------------------------------------------------
    As a short introduction, I am the Assistant Director for 
Infrastructure Security within the Cybersecurity and 
Infrastructure Agency within DHS.
    I want to thank you all for your leadership in passing the 
Cybersecurity and Infrastructure Security Agency (CISA) Act of 
2018.
    I appreciate the interest of this Committee on getting to 
the facts regarding threats from EMP and GMD.
    While I am new to my current role, I previously served as 
the Managing Director of Enterprise Security at Duke Energy. I 
am also the former Director of Critical Infrastructure 
Protection at the North American Electric Reliability 
Corporation. I am very familiar with the risk management 
conversation we are discussing today.
    The effects of nuclear EMP and GMD on critical 
infrastructure are related, but the threat space is very 
different and should be discussed separately.
    Regarding the threat landscape for nuclear EMP, work 
completed by the intelligence community (IC) and the nuclear 
weapons community provides specific and period assessment of 
the nuclear weapons capabilities of foreign countries, 
including the capabilities to generate an EMP.
    The intelligence community currently has no specific, 
credible information indicating that there is an imminent 
threat to critical infrastructure from an EMP attack. However, 
the consequences of a successful nuclear EMP attack using a 
nuclear weapon detonated at high altitude are potentially 
severe and may include long-term damage to significant portions 
of the Nation's power grid and communications infrastructure.
    Under the joint DHS-DOE funding, the United States nuclear 
weapons laboratories have completed a preliminary nuclear EMP 
impacts assessment on the Nation's electric power system. This 
study developed a spectrum of EMP attack scenarios and 
estimates of impacts. Although additional work is required, 
this study provides the basis for more advanced risk 
assessments in the electric sector and a framework for risk 
assessments in other sectors.
    DHS, in collaboration with interagency partners, is working 
to provide owners and operators of critical infrastructure with 
the resulting information and frameworks to help them manage 
risks from electromagnetic events.
    Regarding the threats landscape from GMD----
    Chairman Johnson. Again, I have to discipline this. We have 
your written testimony. We can read that. I want to move on. 
You do not have to necessarily read these things, off the top 
of your head the subject matter. Give us the primary points of 
what you are coming here to testify about.
    Our next participant will be Nathan Anderson. He is the 
Acting Director of the Homeland Security and Justice Team at 
the U.S. Government Accountability Office (GAO). Mr. Anderson.

  TESTIMONY OF NATHAN ANDERSON,\1\ ACTING DIRECTOR, HOMELAND 
   SECURITY AND JUSTICE TEAM, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Anderson. Thank you, Chairman Johnson, Ranking Member 
Peters, Members of the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Anderson appears in the Appendix 
on page 58.
---------------------------------------------------------------------------
    Since 2016, we have issued several reports reviewing 
Federal agency actions to address electromagnetic risks.
    First, we found in 2016 that DHS, DOE, and the Federal 
Energy Regulatory Commission (FERC) had taken actions, such as 
establishing industry standards and Federal guidelines and 
completing EMP-related research. We found that their actions 
aligned with the some of the EMP Commission recommendations.
    We also found that opportunities existed to enhance Federal 
efforts to coordinate and address electromagnetic risks to the 
grid and made several recommendations, most of which have been 
implemented.
    Second, we reported that electricity suppliers had 
identified information on GMD and high-altitude electromagnetic 
pulse (HEMP) effects on the grid, and most suppliers we 
interviewed had taken some steps to protect against GMD 
effects.
    U.S. and Canadian suppliers have identified information on 
the potential effects of a severe GMD resulting from a solar 
storm, but have identified less information about the potential 
effects of HEMP events.
    Suppliers we interviewed also described the range of costs 
incurred to protect against GMD and HEMP, which can range from 
minimal costs to 20 percent of such projects' costs.
    We also reported on technologies that are available or in 
development that could help prevent or mitigate the effects of 
GMDs on the grid. They hold promise but are not ready for 
widespread operational deployment.
    Finally, we found that efforts are under way to address the 
likelihood of a large-scale GMD, the risks such storms pose and 
potential mitigation measures, which will help inform whether 
additional actions are needed to prevent or mitigate the 
effects of GMDs on the grid.
    Regarding EMP events, we found more research is needed to 
fully investigate and evaluate how an electric utility could 
protect itself from or mitigate the effects of EMP on its 
system.
    This concludes my statement.
    Chairman Johnson. Thank you, Mr. Anderson.
    Our next participant is Joseph McClelland, who is the 
Director of the Office of Energy Infrastructure Security at the 
Federal Energy Regulatory Commission. Mr. McClelland.

   TESTIMONY OF JOSEPH H. MCCLELLAND,\1\ DIRECTOR, OFFICE OF 
   ENERGY INFRASTRUCTURE SECURITY, FEDERAL ENERGY REGULATORY 
                           COMMISSION

    Mr. McClelland. Thank you, Chairman Johnson and Ranking 
Member Peters, for your leadership and interest in this subject 
and with the invitation to this roundtable discussion today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McClelland appears in the 
Appendix on page 65.
---------------------------------------------------------------------------
    I am here today as a member of the Commission staff, and my 
remarks do not necessarily represent the views of the 
Commission or any individual Commissioners.
    The Commission's authority to oversee the development of 
mandatory standards to protect the reliability of the bulk 
power system fall under the Federal Power Act. Under this 
authority, FERC cannot author or modify reliability standards 
but must depend upon an Electric Reliability Organization (ERO) 
to perform this task.
    The Commission certified the North American Electric 
Reliability Corporation (NERC), as the ERO. The ERO develops 
and proposes new reliability standards or modifications to 
existing standards with industry for the Commission's review, 
which it can either approve or remand.
    However, the consequences of a severe, naturally occurring 
event, or national security threat by entities intent on 
attacking the United States by exploiting its vulnerabilities 
in its electric grid or using physical or cyber means stands in 
stark contrast to major reliability events that have caused 
regional blackouts and reliability failures in the past.
    Widespread disruption of electric service can undermine the 
security of the U.S. Government, its military, the economy, as 
well as endanger the health and safety of its citizens.
    Given the national security dimension to this thread, it is 
imperative that action be taken quickly and effectively to 
protect America's infrastructure.
    For these reasons, the Commission uses a dualfold approach, 
employing both mandatory standards to establish foundational 
practices, while also working collaboratively with industry, 
the States, and Federal agencies to identify from best 
practices to mitigate advanced threats.
    Because EMP and GMD events pose a serious threat to the 
electric grid and its supporting infrastructure that serve our 
Nation, the Commission has found it necessary to use both 
standards and a collaborative approach to address these 
threats, as is detailed in my written testimony.
    Thank you, and I look forward to our discussion.
    Chairman Johnson. Thank you.
    By the way, we do not have to restate the fact that this 
could be catastrophic. We have both said it twice. So focus in 
on new information, particularly your agency or the people you 
are representing, what are the main points.
    Our next participant is Dr. George Baker. Dr. Baker is 
currently a professor emeritus at James Madison University. He 
previously served as the Senior Advisor to the former 
Commission to Assess the Threat to the United States from 
Eelectromagnetic Pulse Attack, which is normally called the EMP 
Commission. Dr. Baker.

 TESTIMONY OF GEORGE BAKER, PH.D,\1\ PROFESSOR EMERITUS, JAMES 
                       MADISON UNIVERSITY

    Mr. Baker. Again, thanks for this opportunity and for 
holding this roundtable. I think it is very important.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Baker appears in the Appendix on 
page 73.
---------------------------------------------------------------------------
    My watch word is ``defense conservative.'' We need to be 
defense conservative in everything we do, and the problem I 
see, that is not happening.
    I have a long list of recommended actions. I will go down 
these, and stop me in midcourse, if you want.
    I have top-down recommendations, things that need to happen 
from the Federal level down and then bottom-up from the local, 
State level up.
    I would say the most important recommendation of the 
Congressional EMP Commission was that we need an office of EMP 
coordination within the National Security Council (NSC), and I 
am told that is actually part of the Executive Order (EO) that 
should come out soon.
    The FERC GMD standard, No. TPL-007-2, though its specified 
environments and systems thresholds are not defense 
conservative, it has at least brought industry attention to 
GMD. This standard, even if rigorously enforced, will leave the 
grid dangerously vulnerable to GMD and needs to be revised.
    Without a corresponding FERC EMP directive, the private 
sector is not doing much of anything on the EMP front.
    New legislation is needed to empower FERC, specifically to 
be able to write and enforce grid protection standards and, 
second, to identify mechanisms, including cost recovery 
measures to incentivize the private sector.
    A national EMP protection standard is needed. DHS is to be 
commended for issuing a coordination version of a protection 
standard, but that needs to become official and expanded to 
address not just communication centers, but the electric grid 
itself.
    For more than half a century, the Department of Defense 
(DOD) has protected high-priority military command-and-control 
communication computer assets for nuclear deterrence. DHS and 
DOE programs need to emulate what DOD is doing, their methods.
    We need to preclude the temptation to reinvent the wheel by 
giving DHS and DOE full access to the DOD standards and 
databases. There is no need to recalculate a standard EMP 
waveform.
    Chairman Johnson. Listen, I understand that this is not 
easy to do, OK? I apologize for that, but I really wanted to 
get into the discussion phase as quickly as possible.
    Mr. Baker. OK.
    Chairman Johnson. What I will say about Dr. Baker's 
testimony is that I did call him. Was it yesterday or 2 days 
ago? Because reading through his testimony, I saw what I have 
not seen in about 6 years of doing this--actual action items.
    I asked him to prioritize that. He was going through that 
list. I would kind of like to use that list. You have all got 
the testimony, correct? OK. Do you have that priority list of 
Dr. Baker?
    I would suggest as we continue this discussion--again, we 
will go through all the opening statements, but when we turn to 
questions, I would recommend to the Senators and I would also 
recommend to the panelists to take a look at that priority list 
because it is actual action items, the things that we should be 
doing from a top-down approach, what the Federal Government has 
to do, versus a bottom-up approach, local utilities, local 
governments, that type of thing.
    Again, I thought it was just very well organized, and I 
think it is a good way for us to organize our discussion, 
around basically the action items that Dr. Baker put in his 
testimony.
    Again, I apologize for cutting you off, but we will get to 
these lists and I think in good detail.
    What I want to ferret out from this is, What do we agree 
on? Where is there a dispute? What maybe does not industry 
agree with versus what does government agree on? I want to get 
this out, fleshed out, so we can actually move forward with 
some real action items.
    Having said that, our next participant is Scott Aaronson. 
He is Vice President for Security and Preparedness at Edison 
Electric Institute (EEI). Mr. Aaronson.

TESTIMONY OF SCOTT AARONSON,\1\ VICE PRESIDENT FOR SECURITY AND 
            PREPAREDNESS, EDISON ELECTRIC INSTITUTE

    Mr. Aaronson. Thank you, Chairman Johnson, Ranking Member 
Peters, and Members of the Committee. As you said, my name is 
Scott Aaronson, Vice President for Security and Preparedness at 
EEI.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Aaronson appears in the Appendix 
on page 85.
---------------------------------------------------------------------------
    EEI represents all of the Nation's investor-owned electric 
companies, and members operate in all 50 States and the 
District of Columbia and serve more than 70 percent of all 
electricity customers in the United States.
    EEI appreciates your leadership in convening this 
roundtable, and I look forward to discussing the electric power 
industry's work to protect against both electromagnetic pulses 
and geomagnetic disturbances.
    My written testimony goes into further detail about 
industry's efforts to address threats posed by EMPs, but for 
the purpose of open comments, I want to address three important 
themes.
    First, we take all threats to our infrastructure seriously. 
Whether preparing for natural hazards or malicious acts, EEI's 
members are committed to protecting the communities they 
served. Ensuring we provide a reliable product is our business. 
So we have every incentive to protect our systems.
    Second, when it comes to issues of national security, the 
electric power industry recognizes its role in protecting the 
lives and safety of our customers. We also recognize that with 
intelligent adversaries and an evolving threat landscape, 
partnering with Federal, State, and local government is 
paramount.
    In fact, the President's National Infrastructure Advisory 
Council (NIAC), called the Electricity Subsector Coordinating 
Council and the electric sector the ``model for government-
industry coordination.'' While we are exceedingly proud of that 
designation and working with our partners at DOE and DHS, we 
are also striving to improve the industry's preparedness 
against all hazards by leveraging both industry and government 
capabilities.
    Finally, we agree that both EMP and GMD post threats to the 
reliability operation of the energy grid and therefore to the 
economic and national security of the Nation.
    To the extent that policy changes are necessary, we look 
forward to working with all the committees of jurisdiction and 
our partners at DOE, DHS, DOD, FERC, and throughout the Federal 
Government.
    But sound policy must be based on sound science, and it is 
for that reason that we appreciate the work of the Electric 
Power Research Institute (EPRI) and the North American Electric 
Reliability Corporation, which informs industry as we pursue 
the right investments and operating posture to appropriately 
protect the energy grid.
    Thank you again for this opportunity. I look forward to the 
discussion.
    Chairman Johnson. Thank you, Mr. Aaronson.
    We will now turn to Randy Horton. He is the Senior Program 
Manager for Grid Operations and Planning at the Electric Power 
Research Industries. Mr. Horton.

 TESTIMONY OF RANDY HORTON, PH.D.,\1\ SENIOR PROGRAM MANAGER, 
GRID OPERATIONS AND PLANNING, ELECTRIC POWER RESEARCH INSTITUTE

    Mr. Horton. Chairman Johnson, Ranking Member Peters, and 
Members of the Committee, thank you for the opportunity to 
participate in today's hearing. My name is Randy Horton, and I 
am a senior program manager at the Electric Power Research 
Institute.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Horton appears in the Appendix on 
page 96.
---------------------------------------------------------------------------
    EPRI takes electromagnetic threats seriously and has 
conducted extensive research to improve understanding of the 
potential impacts that high-altitude EMP and GMD events can 
have on the electric grid.
    As an example, EPRI launched a focus research effort in 
April 2016 to evaluate the potential impacts of a high-altitude 
EMP attack on the U.S. electric grid and to identify and test 
options for mitigating those potential impacts.
    Currently, there are more than 60 U.S. utilities 
participating in this research project. Using various 
unclassified or bounding high-altitude EMP environments, 
including those provided by DOE and Los Alamos, we have 
evaluated the potential impacts of high-altitude EMP on the 
electric transition system.
    Additionally, we have evaluated and tested several options 
for mitigating impacts that were identified.
    A final report of this research, including assessment 
results and mitigation options, is expected to be made 
available on April 30th of this year.
    A key to our success has been our close collaboration with 
subject-matter experts at the DOE, the three DOE weapons labs, 
and the Defense Threat Reduction Agency (DTRA). The sharing of 
knowledge and information that has occurred over a 3-year 
period has been very valuable to our research and also to the 
industry.
    GMD is also concerned for the bulk power system, and over 
the last four decades, EPRI has been a leader in this area. We 
are currently performing research to improve industry's ability 
to predict and mitigate the potential impacts of a severe GMD 
event, and the results of this research may be used to inform 
future revisions of NERC GMD standards.
    In closing, EPRI is committed to developing science-based 
solutions to these complex problems and will continue to offer 
technical leadership and support to the electricity sector, 
public, policymakers, and other stakeholders.
    Thank you for your time. That concludes my testimony.
    Chairman Johnson. Thank you, Mr. Horton.
    Our next participant is David Roop. He is the Director for 
Electric Transmission Operations and Reliability at Dominion 
Energy. Mr. Roop.

  TESTIMONY OF DAVID ROOP,\1\ DIRECTOR, ELECTRIC TRANSMISSION 
          OPERATIONS AND RELIABILITY, DOMINION ENERGY

    Mr. Roop. Good afternoon, Chairman Johnson, Ranking Member 
Peters, and Members of the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Roop appears in the Appendix on 
page 108.
---------------------------------------------------------------------------
    I am the director of Electric Transmission Operations and 
Reliability at Dominion Energy. My company very much 
appreciates the opportunity to participate in today's hearing.
    Dominion Energy is headquartered in Richmond, Virginia, and 
provides electricity or natural gas to 7.5 million homes and 
businesses across 18 States. The service area for our regulated 
utility, Dominion Energy Virginia, is in close proximity to the 
District of Columbia, and it includes many vital national 
security and defense operations.
    We also provide electricity to a large percentage of the 
Internet traffic in the world.
    During my 43 years with Dominion Energy, my focus has been 
on electric transmission and substation operations. At Dominion 
Energy, we consider all hazards, manmade or acts of man as well 
as naturally occurring events, in both our planning and 
operations. Protecting our system for GMD and EMP is part of 
that mission.
    Over many decades, we have hardened our substation 
components to better enable them to survive the impact of GMD 
events. This hardening has occurred as we upgrade or replace 
equipment at the end of a life.
    Over the course of many years, Dominion Energy has made 
investments and developed contingency plans to improve the 
resiliency of our network that may confront it with EMP events.
    Making these simple changes has also improved our day-to-
day operations for challenges such as lightning and transients.
    But we now come to a point that requires additional 
research to guide our future efforts to improve system 
resiliency for EMP events. This research is extremely important 
in helping us to make prudent investments. The tremendous 
support of our Federal partners has allowed us to get to the 
point we are today. This assistance has really improved our 
knowledge, and we are grateful for it. I ask the U.S. 
Government to continue this effort to get us across these next 
few research areas.
    Thank you for the opportunity to be here today.
    Chairman Johnson. Thank you, Mr. Roop.
    Our next participant is James Vespalec.
    Mr. Vespalec is the Director for Asset Planning and 
Engineering at the American Transmission Company (ATC) 
headquartered in Waukesha, Wisconsin. Mr. Vespalec.

 TESTIMONY OF JAMES VESPALEC,\1\ DIRECTOR, ASSET PLANNING AND 
           ENGINEERING, AMERICAN TRANSMISSION COMPANY

    Mr. Vespalec. Thank you. Thank you, Chairman Johnson, 
Ranking Member Peters, and Members of the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Vespalec appears in the Appendix 
on page 117.
---------------------------------------------------------------------------
    I am with American Transmission Company as was mentioned. 
We were formed in January 2001 as a transmission-only utility. 
We operate 9,600 miles of transmission lines and assets in 
about 560 substations in portions of Wisconsin, Michigan, 
Minnesota, and Illinois. We do not own generation, and we do 
not have load-serving customers. We serve other utilities that 
serve the load.
    We have been active in many different industry 
organizations, such as EPRI and North American Transmission 
Forum (NATF) and others, where we monitor the research and 
follow the steps that are being taken in the industry, trying 
to identify prudent steps that we can take to mitigate these 
risks.
    I think one of the reasons I am here, in 2015, ATC 
purchased the first commercially available transformer neutral-
insertion device and installed in one of our substations. We 
found a substation that was ideal for that device, and we 
installed that prototype, which is meant to automatically 
protect the transformer from harmful geomagnetic-induced 
currents. To my knowledge, it is the only one currently 
installed and operational in the industry.
    We set the threshold on it very low so that we could get a 
lot of operations on it and get some experience with it. So 
far, it has operated dozens of times and has performed as 
designed.
    It is not meant to be done without forethought to just put 
one in. You need to do a little bit of thinking and studying of 
the transmission network so you can fully understand what the 
impacts might be.
    We take many other steps, defense-in-depth approach, as 
highlighted in my statement, sharing information like we are 
doing today, and some of the research that is going on at EPRI 
are critical for tackling this issue and finding prudent 
effective decisions to make.
    Chairman Johnson. Thank you.
    Our next participant is Justin Kasper. Mr. Kasper is an 
Associate Professor of Space, Science, and Engineering at the 
University of Michigan. Mr. Kasper.

 TESTIMONY OF JUSTIN KASPER, PH.D.,\2\ ASSOCIATE PROFESSOR OF 
    SPACE, SCIENCE, AND ENGINEERING, UNIVERSITY OF MICHIGAN

    Mr. Kasper. Chairman Johnson, Ranking Member Peters, 
Members of the Committee. Thank you for this opportunity to 
discuss with you what we know about the solar origin of 
geomagnetic disturbances and how we can improve our ability to 
predict their occurrence.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. Kasper appears in the Appendix on 
page 119.
---------------------------------------------------------------------------
    The famous Carrington event of 1859 started with a visible 
flare on the Sun, and then 18 hours later, a magnetic tsunami 
engulfed Earth, sending compasses spinning, bringing the 
Northern Lights down to the Caribbean, making telegraph lines 
spark. We might not rely on a telegraph today, but our power 
lines are equally susceptible.
    The risk from these events is real, and unfortunately, the 
Carrington event was not some unique event. On July 23, 2012, 
for instance, a spacecraft operating on the other side of the 
Sun was immersed in a similar eruption that would have hit 
Earth square on if it had happened just 9 days sooner.
    Multiple researchers estimate the probability of a similar 
event happening in any one decade at between 3 and 10 percent.
    Now, I would also like to stress in addition to these 
extreme events, smaller but more frequent GMD also have a 
significant cumulative impact. For example, commercial 
insurance claims for damage to electronics spike around 20 
percent during periods of heightened geomagnetic activity. This 
translates to an average of $10 billion in damage each year in 
the United States so if we could address those major GMDs, we 
might also be able to protect ourself from those smaller 
events.
    What can we do about this? Well, right now, telescopies 
detect an eruption at the Sun, and we make a forecast. We do 
not have any confirmation until it reaches the National Oceanic 
and Atmospheric Administration (NOAA) Deep Space Climate 
Observatory (DSCOVR) spacecraft. Now, any earning is better 
than none, but an extreme event would get from that spacecraft 
to Earth in less than 10 minutes, and this is not enough time 
to assess the risk and recommended action.
    We need spacecraft closer to the Sun, providing earlier 
warning of Earth-directed events and their properties that are 
models of those eruptions and regional forecasts of GMDs. Most 
importantly, I think we need leadership with the authority to 
coordinate and direct the research and operational components 
of space weather that are spread now over multiple agencies.
    Chairman Johnson. Thank you, Mr. Kasper.
    Our final participant is Caitlin Durkovich. Ms. Durkovich 
is currently a Director at Toffler Associates and previously 
served as Assistant Secretary of Infrastructure Protection at 
the U.S. Department of Homeland Security. Ms. Durkovich.

STATEMENT OF CAITLIN DURKOVICH,\1\ DIRECTOR, TOFFLER ASSOCIATES

    Ms. Durkovich. Good afternoon, Chairman Johnson, Ranking 
Member Peters, and Members of the Committee. Thank you for 
inviting me to testify today on protecting the electric grid 
from an EMP or GMD, and thank you for your leadership on this 
issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Durkovich appears in the Appendix 
on page 124.
---------------------------------------------------------------------------
    In addition to having served as the Assistant Secretary for 
Infrastructure Protection, I also co-chaired the Space Weather 
Operations Research and Mitigation (SWORM), Task Force, which 
produced ``The National Space Weather Strategy'' and action 
plan in 2016.
    There is no doubt the risk facing our critical 
infrastructure has grown. We are reliant on aging 
infrastructures that increasingly leverage data and technology 
to enable more efficient, reliable, and distributed operations.
    This highly interconnected, electrified, and digitized 
ecosystem is not only being used for purposes we never could 
have imagined when it was built a century ago, but it must be 
resilient to risks, as Senator Peters said, that we never could 
have imagined or fully appreciated 100 years ago.
    What is encouraging is the partnership and coordination 
between government and industry, which owns most of our 
Nation's critical infrastructure. It has matured, and it is 
providing more visibility into emergent threat vectors and 
potential consequences guiding join action on risk mitigation.
    The Electricity Subsector Coordinating Council (ESCC) is 
one such example. The SWORM Task Force is another. DHS's 
strategy for protecting and preparing the homeland against 
threats of EMP and GMD is another. The strategy's three goals 
are practical steps, the critical infrastructure community can 
coalesce around.
    I do agree with DHS's assessment about the potential 
severity of both the direct and indirect impacts of an EMP or 
GMD incident and that it should compel our national attention.
    One of the biggest challenges I believe we face is risk 
awareness and sustained focus on this hard problem. Lower 
probability, high-consequence threats are overshadowed by real-
time threats that require 24/7 attention, such as cyberattacks.
    I believe that we can take a page from hurricane 
preparedness to help improve action around this important 
issue, and I look forward to talking to you about it over the 
course of the next several hours.
    Thank you very much, and I think we can get to the heart of 
the matter now.
    Chairman Johnson. Let us get to it.
    Normally, what ends up happening in these Senate types of 
hearings is we go down a list, and we each get 5 minutes to 7 
minutes. That works fine, but we end up with a pretty 
disjointed conversation from my standpoint.
    So what I want is a little bit more of a free-for-all. I 
expect Senators to be respectful of each other. We will chime 
in, but what I would like, because there is so many of you, if 
you want to chime in on a particular topic or question, just 
put your name tag up like that, and we will try and get to you 
sort of in the order that you have done that.
    I would just quick-start out the line of questioning, 
getting back to what I was saying in my opening statement.
    Do not take offense by this. I heard a number of you talk 
about we take this very seriously. OK, good. We have to. What 
have we done about it? We have known about this since--well, 
GMD, Carrington effect, in terms of high-altitude nuclear 
blasts since the early 1960s.
    By the way, when I was interviewing General Kelly for 
Secretary of Homeland Security, I asked him about his 
understanding of the threat of EMP and does he take it 
seriously because we have had people on this Committee say it 
is hokum. I asked General Kelly. I said, ``What is your 
evaluation of this? Is this going to be a top priority of you 
as a Secretary?'' He said, ``Well, Senator, I am not a 
technologist, but I do know in the Defense Department, we spent 
billions of dollars hardening our defense assets.''
    In part of Dr. Baker's testimony, it is that we have the 
military spec for this. We have known about this. We are not 
doing high-altitude nuclear tests. We do not have the specific 
information on current electronics, but we have standards now.
    I want to start out with Mr. McClelland with FERC. FERC did 
establish a spec for GMD. Why did we not establish a spec for 
EMP?
    According to Dr. Baker's testimony--I do not want to throw 
you under the bus, Dr. Baker, but the GMD spec is set at too 
low intensity, and we are assuming the survivability of these 
transformers and equipment is just too high.
    Can you explain what happened with FERC? Because that is 
certainly one of the recommendations of Dr. Baker is we have to 
establish a higher standard for GMD and we have to establish 
standards for EMP or the industry will not do anything. I do 
not blame them because they have no direction.
    But, please.
    Mr. McClelland. To that point, we have been discussing this 
and been before panels multiple times, and we have said in the 
open--I know I have said it under testimony--that the NERC 
standards development process is a consensus-based process with 
industry. FERC cannot write or author the standards. It can 
conduct research, and it has done that.
    So, in 2010, it, with DOE and DHS, sponsored extensive 
studies on GMD, EMP, and Intentional Electromagnetic 
Interference (IEMI) as a basis for further action. It then sua 
sponte or on its own motion directed NERC to develop a GMD 
standard. That was after there was significant contentious 
discussions between subject-matter experts and industry, and 
the argument went like this. If the grid collapses--first of 
all, FERC came out with a study with the Oak Ridge National Lab 
(ORNL), with DHS and DOE, and said that up to 368 bulk power 
system transformers would be damaged--could be damaged or 
destroyed after a significant GMD event.
    There was a counter-study then performed by EPRI and DOE 
that asserted that the grid would collapse before that damage 
occurred. That is a great point.
    We established in either case, it does not matter. 
Wholesale collapse of the power grid for days or a week or more 
would cost so much money and so much suffering that the 
standard was justified.
    So FERC on its own motion ordered the standard to be 
developed. It gave guidelines to NERC. NERC developed the 
consensus process. FERC than approves it because it establishes 
a baseline. At least there is a baseline.
    But when it approved these standards, subsequent standards 
from NERC, there were iterations. Three separate times when 
FERC approved the standard, it directed modifications to that 
standard, and that really goes back to the crux of the 
standards themselves.
    What we have said openly is that for national security 
purposes--and this is part of the oral remarks and the written 
testimony--the standards development process is too slow. It 
takes years to develop a standard. It is too open. Our 
adversaries can read the standards and design around them as 
quickly as the standards are put into place, and it is not 
necessarily responsive to the Commission's directive.
    The standard that we have is a result of industry 
consensus, and at least it is a basis. That is why FERC uses a 
dualfold approach and works with--I have known Dr. Baker for 
years, and we worked together on this issue. We use best 
practices collaborating with the Department of Energy, 
Department of Homeland Security, the intel community, and we do 
classified briefings with industry members to say, ``You do not 
have to put this everywhere.''
    But for those most critical points--and if you remember our 
last hearing, we modeled those critical points and said here 
are the most critical points on the system where if you use 
best practices, it may be enough to dissuade adversarial 
action.
    Chairman Johnson. OK. Somebody answer the question. You 
guys be willing to jump in here.
    We already had specifications to harden our military 
assets. I believe in the ``Keep it simple, stupid'' (KISS) 
principle: Keep it simple. Why would we not just go to that?
    Those things have been available for how long, Dr. Baker? 
How long have we been hardening our military assets against EMP 
and GMD?
    Dr. Baker; We started in the 1960s with the Minuteman 
System. Our first EMP protection standard came out in 1992, I 
believe.
    Chairman Johnson. We have had a standard that required no 
further research whatsoever to start hardening critical assets.
    One of the parts of your testimony--and this is one of the 
reasons I have a fire under my you-know-what on this is we are 
now creating these microgrids that, according to your 
testimony, Dr. Baker, would cost 2 to 5 percent more to hit the 
military standard----
    Mr. Baker. Yes. And the GMD.
    Chairman Johnson [continuing]. For protection?
    Mr. Baker. Right.
    Chairman Johnson. But unless we have a top-down standard 
set by FERC and NERC or the Department of Energy, Department of 
Homeland Security, it will not happen, correct? I mean, you 
could ask industry about this.
    Again, why would we not do that? Is there any reason not to 
do that? Is there any reason why Senator Murkowski's staff and 
her Energy Committee should not hop on this right away and pass 
a law that says this will be the standard? Particularly for 
microgrids because that is right now sort of the urgent 
problem.
    Mr. Baker. This is a watershed moment for microgrids. Yes.
    Chairman Johnson. Go ahead, Mr. Horton.
    Mr. Horton. I know you are aware that our final report is 
not out, so I cannot go into a whole lot of detail, but your 
question is basically the initial question that we were 
answering as a part of our research is the mil standards--and 
to be specific, it would be the unclassified mil standards. 
Those exist. Could you go apply them to a utility?
    One of the first things we did as a part of our research 
was, without knowing anything else, if you took the unclass. 
military standards and applied them to a substation, for 
example, in an electric grid, what would that look like? 
Through that process--and keep in mind that those standards--
and I am speaking to the military standards--were never 
designed to hardened utility-type assets.
    As we got into the details a little bit, a lot of it, you 
could use, but there were some things that if you were to use 
them, you could actually create potential issues.
    I guess the basic answer to your question is when you take 
those standards and begin to apply them to utilities, the devil 
is in the details. So working out some of that is a research 
need, which we have done as a part of this research project.
    Chairman Johnson. We have been doing this for--let us just 
go back, instead of the 1960s, to 2001, the first EMP 
Commission. So this is 18 years. The question I would ask what 
have--we have taken this seriously. What have we actually done 
other than literally admire the problem?
    Mr. Horton. As a part of our research, we have identified--
I would prefer not to go into that today, but we have 
identified actions that utilities can do to harden against E1 
EMP, for example, using nonmilitary----
    Chairman Johnson. Issuing your report when?
    Mr. Horton. April 30th of this year, 2 months from now 
basically.
    Chairman Johnson. OK. Good. Look forward to seeing it.
    Senator Peters. I do not want to get off track here, but I 
want to get back to the GMDs and the discussion.
    Mr. McClelland, you mentioned that the standards are put in 
place for the industry now. My understanding, though, is that 
the standards are--assuming it is a Carrington-type event that 
we have talked about, it is a thousand-year event. Is that 
accurate? You are not really planning for that? That, 
basically, that type of event would overwhelm the grid?
    Mr. McClelland. I do not know the specific tie-back to 
Carrington, but I can say that it does not consider a 
Carrington-type event. No, the standards would not do that.
    Senator Peters. Right. If we had a Carrington-type event, 
we would be in serious trouble because the standards do not do 
that.
    Dr. Kasper, I think the industry thinks, or at least based 
on these standards, that this is like a thousand-year event. 
You mentioned in your testimony every decade, it could be up to 
a 10 percent chance. We missed one just a few years ago by 9 
days. What does the science tell you?
    Mr. Kasper. Well, I reviewed the standard, and I see the 
argument. It is largely based off of events like an event in 
1989, which is well studied. One of the problems with the 
Carrington event is we did not have spacecraft back then, so we 
do not have enough data.
    If you had asked me and my community 10 years ago, we would 
say maybe this is a one-in-a-thousand-year event, but since 
then, we have had more events.
    In 2012, one of our spacecraft called Solar Terrestrial 
Relations Observatory (STEREO) intercepted a larger than 
Carrington, actually, we think, event heading away from the 
Sun, and it actually took a year or two to realize just how 
substantial that event was and really process it.
    But we were clearly seeing it happening on a repeating 
basis. We know that they are happening, and we have spacecraft 
observations that tell us how strong the magnetic field is.
    It would be wonderful to be able to model what that event 
would have done to Earth and use that as a basis for probably a 
more common large-scale event.
    Chairman Johnson. Is there any scale we can compare? If 
that was a 10, what is the FERC specification? Are we hardened 
to a 3? Are we hardened to a 9? How far behind are we? Dr. 
Baker?
    Mr. Baker. There was a FERC Oak Ridge National Lab study 
that was based on a 1921--it is called the ``Railroad Storm,'' 
which in the Earth magnetic field disturbance terms was a 
5,000-nanotesla-per-minute storm.
    The 1989 event, which is pretty close to what we have in 
the GMD standard, was a 500-nanotesla-per-minute storm.
    Senator Peters. Wow.
    Mr. Baker [continuing]. Nanotesla-per-minute, one-tenth of 
a 1921 storm, which was 100 years ago.
    Chairman Johnson. The standard is set really low. Anybody 
want to dispute that? The GMD standard right now by FERC to 
NERC to industry is really low.
    Mr. Baker. It is not defense conservative.
    Chairman Johnson. It would be nice to try and get it down 
to those types of terms so we can kind of describe this to 
people, but that is what we are trying to look for.
    Senator Peters. Does anybody dispute that, that they are 
very low?
    Mr. Horton. I would add maybe a technical detail. The March 
1989 event--so we are talking nanoteslas. Another way to look 
at this is electric field levels. It is on the order of 2 volts 
per kilometer, and the benchmark TPL-7, 1-in-100-year event for 
the same geomagnetic latitude is 8 volts per kilometer. It is 
actually about four times higher than the 1989 event.
    Now, that compared to the 1921 event, I do not know the 
details of that.
    Mr. Baker. The 1921 event, if you believe Faraday's Law, 
would be 20 volts per kilometer.
    Chairman Johnson. The length of transmission line, it just 
keeps growing too, right? It is not necessarily the intensity 
of just the burst. It is how long a transmission line you have 
that it just accumulates, correct? Or am I misinterpreting 
that?
    By the way, just hop in. Just start talking.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. OK. Well, I know I am new to the Committee, 
so I have a couple of questions about the resiliency and the 
redundancy of our grid. Of course, we have multiple grids, our 
military grid, our commercial grid, what I like to call our 
``distributed grid.'' It will have solar, wind farms, geo, 
thermal, water power, and of course, cyber communications now, 
wireless communications, all part of the interconnectivity of 
this grid.
    Can you tell me how these bursts are impacting the wireless 
communication between these distributed grids? And then the 
second part, what is the resiliency and redundancy that is 
built in? We know everything is connected. If one cyberattack, 
maybe they can just hit us from a satellite down to a grid, and 
it goes out. What is the resiliency and redundancy you have 
built in for that, please?
    Mr. Aaronson. I will start, but I am going to rely heavily 
on a couple of the engineers who are sitting to my left.
    You raise a really important point about interconnectivity, 
not just of the grid itself, but to other critical sectors.
    Senator Rosen. Not so much transmission lines as wireless--
--
    Mr. Aaronson. It is the actual communication.
    Senator Rosen [continuing]. Communication between our 
satellites as they circle around the Earth now.
    Mr. Aaronson. That is exactly right.
    So for us to be able to operate, I think one of the things 
that I want to kind of challenge is that the electric sector 
would not do anything but for standards.
    I think that may be true 15 or 20 years ago. That might be 
older history, but I think given the shift in geopolitical 
threats to our Nation and our sector of being particularly key 
to our national sector, this is why this sector came together 
at the Chief Executive Office (CEO) level to start really 
focusing on some of the threats that we are facing.
    We are proud of the progress that we have made. I would 
kind of push back on we would not do anything. There are good 
examples of things that we are doing to protect our systems, 
but what you have to recognize is we could harden everything to 
mil spec.
    Senator Rosen. That is right.
    Mr. Aaronson. It would probably cost an awful lot of money 
to provide electricity to our customers, but if we do not have 
water, we cannot generate steam or cool systems. If we do not 
have telecommunications, we cannot operate. If we do not have 
transportation and pipelines, we cannot move fuel.
    So looking at this, to use Dr. Baker's language of a top-
down, holistic, sort of defense minimum, we do have to be 
thinking about this in terms of a lot of cross-sector impact.
    That said, we also have to be doing this from a risk-based 
approach. One of the things that is most important--and again, 
I think the military did it similarly, which is you prioritize. 
We were not putting mil spec, EMP hardening on the Post 
Exchange (PX), but we were on command-and-control assets.
    So what are those key assets in the North American electric 
grid that we ought to be hardening to a particular level?
    Senator Rosen. What is connected to it outside? You can 
harden this building, but there are so many connections into 
this, not necessarily hard transmission lines.
    Mr. Aaronson. The one thing I would respond to you on that 
is one of the defenses that we have as a sector is the 
biodiversity. If you have seen one control center, you have 
seen one control center. If you have seen one sort of company's 
structure and we will call them their substation settings--you 
have seen one.
    From a cyber perspective in particular, that gives us an 
awful lot of resilience because an adversary can attack one 
company and they have attacked one company. Because of the 
resilience, the redundancy, the biodiversity in the grid, we do 
have excess capacity, spending reserves, the ability to move 
electricity in different ways.
    Now, one of the things that I am passionate about is from 
an engineering perspective--I have talked to engineers before 
who have said, ``Oh, we would just reengineer the system,'' if 
blank happened. Do we know what that looks like? Have we done 
that before? Can we test it? Can we prove it?
    Senator Rosen. Right.
    Mr. Aaronson. This goes sound science needs sound--or sound 
science results in sound policy.
    These studies, while we call it admiring the problem, it is 
not admiring the problem. It is making sure we are doing the 
right things so that we can have more resilience and do it in a 
cost-effective way.
    Senator Rosen. Now with quantum computing, with all kinds 
of things, what do you feel that you can do with predictive 
modeling so you can simulate these things and you can actually 
run some disaster recovery plans, all on a computer? Right?
    Mr. Aaronson. There is terrific modeling, and I am going to 
look over at Karen Evans for that.
    Senator Rosen. What can we do to help you improve that 
modeling, thus, improving not only the predictability, but also 
bringing us back up in case of an event?
    Ms. Evans. OK. There was a lot in your question. No, which 
is----
    Senator Rosen. Sorry. It is an exciting topic.
    Ms. Evans. No. Which is awesome because to get to your 
point about the discussion and what our agency is doing and how 
we are approaching this, this situation from a whole-of-
government approach.
    But to the modelings and what we do at the National Labs 
and so what we are doing within Department of Energy, which was 
required through the Fixing America's Surface Transportation 
(FAST) Act of 2015, that other components within DOE, we are 
looking at.
    We are currently building a model right now. We call it the 
North American Resiliency Model (NARM), which Assistant 
Secretary Walker has talked about. And that is what he is 
building.
    It is to model exactly what you are talking about, but the 
requirements under the FAST Act that Senator Murkowski and that 
Committee's leadership has said was you have to identify what 
are the critical assets across in the energy sector and then 
what are the interdependencies.
    In the defense critical energy infrastructure base as well, 
it is what are those energy resources that are critical to the 
Department of Energy. Then they can do certain things within 
the DOD parameter. Then what is outside that parameter, which 
is in the energy sector? How do we rely on private sector with 
that? Collect the data. The critical points that Mr. McClelland 
is talking about is in this model.
    So we anticipate, as DOE, that this first modeling will be 
done by the fall.
    Then, to your point, there is capabilities in the National 
Labs under quantum computing, under the data, what we are doing 
in the CESER program, and the work that we are doing with--tri-
sector with DHS is you put the data on top of that so that you 
can actually start doing the modeling and what is the impact of 
that and integrate that in under these scenarios and test 
scenarios.
    So that, to your point about should we put this standard in 
place, there is a cost associated with all of these, right? And 
most of this infrastructure is owned by private industry.
    As we go forward, what we are going to have to do is 
provide enough information with good science that informs the 
investment. Does it make sense on this list from a top-down 
approach? How much does the Federal Government do in order to 
protect? What is the risk associated with these types of 
events? What does industry match us as what is that risk and 
what is going to happen so that we can do the modeling?
    Chairman Johnson. I remember a hearing a couple of years 
ago where we had GAO. They had issued a report on the results 
of the EMP Commission, and they had, I think, an A through O 
list about quick fixes, things we have to do. The testimony 
after years of those recommendations being out there, we had 
done none of them. These were tasked to the Department of 
Energy and to DHS. And they had done nothing.
    Again, I keep coming back to the point, prioritization. 
Listen, I would like to operate with perfect information. If 
you make a one-dollar investment, that is a solid dollar 
investment. It is not wasted at all.
    I do not blame industry. You are not going to act until 
government forces you to act. I blame government for being very 
slow off the mark.
    We finally, after a couple of years, got Critical 
Infrastructure Protection Act (CIPA) passed, which basically 
the argument was is it a strategy or plan? Well, we called for 
a report from DHS. We got it a year late. It is 23 pages of 
basically a strategy to develop a strategy to develop a plan. 
There are no action items.
    I go back to the EMP Commission, some quick fixes. We have 
talked about, OK, we do not have perfect science, but we do 
know if we start blowing large power transformers, we cannot 
replace them. The redundancy in terms of sharing with other 
utilities, well, if you are all wiped out, that does not work 
very well. If we are completely down, how do you black-start 
the entire grid?
    Again, I am looking for prioritization of action to 
actually do something to start mitigating this as opposed to we 
are going to wait for the model. We will inform our study, 
which we will start maybe developing a plan. Then there will be 
a new Administration. Then we will have another law passed, and 
we will have to do a study on that. Are you sensing some 
frustration from at least the Chair?
    Ms. Evans. Sir?
    Chairman Johnson. OK. Ms. Evans. Sure.
    Ms. Evans. OK. Yes, sir. I sense your frustration, and the 
model is not the only activity that is being done jointly 
within the community.
    When you look at the list and you look at the action items, 
again, I believe Secretary Perry and what this Administration 
has done is take the frustration of what you are saying and 
what is the responsibilities and what is expected of Congress 
back to the Department of Energy.
    That is exactly why my office was formed. It is not just 
cybersecurity, but it is energy security and then the response.
    So to some of this stuff that you are talking about as it 
relates to response, we hold joint exercises. The exercises are 
critical. The exercises are tangible. They are scheduled, and 
they are scenario-based. The point of that is to test out. You 
have a plan in place. The time that the incident occurs is not 
the time for us to be testing the plan. The exercises are set 
up for us to actually test do we have the right things in place 
and where are the gaps in our research, so that we can then 
redirect the research.
    I did bring specific activities of the research that we are 
doing in the Department, how much we have applied to that, and 
how we are moving forward with our National Labs to be able to 
do the modeling, to do the predictive pieces.
    Chairman Johnson. You are confusing activity with action to 
actually mitigate, OK?
    Ms. Evans. No. No, no, no, no.
    If you have an exercise and you see where you do not have 
the strategy--for example, we did it jointly with DOD, the 
Liberty Eclipse exercise up in Plum Island. That is a black 
start. If you do not have the equipment prepositioned, which is 
things that we have learned from the hurricane responses of 
doing mutual assistance, then you can start looking at how do 
you redo some of those things, how do you reach out, and what 
are the interdependencies, and then how do we have to then 
either come to Congress and say we have gaps in our authorities 
or we have to go out to industry and our industry partners and 
say we have to adjust the mutual assistance agreements that we 
have out there or this is how some of these things--or 
eventually, to your point, we have enough information that we 
then go to FERC and NERC and say we need to establish a 
standard.
    Senator Rosen. But how can we help you here in Congress to 
bridge these gaps? I have worked on disaster recovery plans and 
computer systems. That is how you learn. That is how you find 
out the holes. You go back and you keep practicing. Of course, 
it is like practicing for the big game, right?
    And so you have private industry. They are not going to do 
anything maybe unless we make them. Maybe not. They do have 
assets to protect.
    But what do you need from us, I think, specifically to try 
to help from this maybe triad or multiple partnerships, so we 
are working on a goal with action items that is tangible? Not 
saying, ``We did our test. We show the hole. Will you? Can you? 
Maybe?'' What can we do here, legislatively, to support you and 
the mission that you have reaching out to your different 
communities?
    Chairman Johnson. Can we start with Mr. Roop? We will work 
our way down here.
    Senator Peters. Get everybody, yes.
    Mr. Roop. I wanted to get back to your point: Is the 
industry doing anything?
    As I indicated in my written testimony, we have replaced 
all of our capacitor banks and all of our major power 
transformers with ones that are hardened to handle, the GMD and 
the E3 event.
    We have also gone beyond the NERC planning standards to 
understand severe stress levels on our system and put 
monitoring equipment on so we know what actions to take to 
separate the system and take stuff out of service before it 
could fail. Those are actions we have done because we know we 
have to protect our grid. That is part of our business.
    The issue we have is we have to use mil specs where it 
makes sense. We just built a new operating center. It is a full 
mil-spec operating center. Everything is protected in it, but 
the problem with that, I cannot do it in the substations 
because of the consequences it has on the protection equipment 
I have that protects our system every day. I do not want to do 
something that will cause daily harm to our system.
    The next study and hopefully in the next 12 months with the 
EPRI work with the Federal partners, we can figure out how to 
protect reasonably that kind of equipment so that we can now 
implement that solution.
    We also need EMP communications, and we are trying to get 
that stood up and do that by October of this year through the 
Electric Sector Coordinating Council (SCC).
    This industry is working very hard at it, but we just 
cannot assume something and throw it out there because I do not 
want to collapse a grid in the process. That is the issue we 
have got.
    Chairman Johnson. I understand.
    Mr. Roop. That is what we are trying to get through right 
now.
    Chairman Johnson. I understand that. I realize Dominion is 
forward-leaning on this, but to what GMD spec did you harden 
your----
    Mr. Roop. Well, we have gone beyond the spec, and we have 
stressed our system.
    I will be honest with you. We are trying to push the 
bounds, and we are working with National Aeronautics and Space 
Administration (NASA), U.S. Geological Survey, NOAA, and EPRI. 
We are trying to understand what are the limits of the network, 
and we are not the only ones. We are working with other 
utilities across the United States to understand, and they are 
also doing the same exercise we are doing because we are trying 
to understand really where is the issue.
    But we have also got a sparing plan where if everything 
goes out, I can get my system back up with the spares I have, 
and we have done that proactively because they are out of 
service. They are not going to be impacted by a solar storm. 
They are not going to be impacted by electromagnetic----
    Chairman Johnson. You already have the large power 
transformers?
    Mr. Roop. Yes, sir. We have already done it, and we have 
done it based on the work with DOE on a minimum grid model. We 
did that as part of the FAST Act work with them, and that has 
really helped us kind of understand where your stress levels 
are.
    This work they are doing now is extremely important to give 
to the rest of the industry.
    Senator Peters. If I could just follow up there. That you 
have higher standards, you have gone further. You have made 
additional investments into your grid. I think it is partly 
because of a lot of the sensitive assets here in the D.C. area 
that will need that kind of protection from disturbance.
    You are assuming--and I think all of you are assuming--that 
you are taking on the storm, the GMD event, that your systems 
are taking on the storm. You have not changed anything.
    What would it be if we had better forecasting, that we 
actually know the storm is coming? Would anything change in 
terms of your preparedness?
    Right now, that detection, my understanding is we can 
detect GMD events like we could hurricanes in the 1930s. So 
that is not all that great, but if we made those kinds of 
investments, how would you react?
    Mr. Roop. That would be excellent, and I will be honest 
with you. That is why we are working so close with NASA.
    We think right now, the way we do the studies, we assume 
the field is moving all the time, and at different 
orientations, they are going to strike transmission lines. In 
reality, that is probably not what is going to happen, but we 
do not know how it is going to affect us. So you make the worst 
case guess, if you can.
    So, forewarning and better computer models that we are 
getting and with what NASA and others are working on, it would 
very much help us.
    Senator Peters. How much time would you need?
    Mr. Roop. If we had 24-to-48-hour notice, it would be 
wonderful.
    Chairman Johnson. We had testimony with that kind of 
notice, and we can shut down the grid. The question I asked, 
OK, who is going to make that call? There was, of course, no 
answer.
    Mr. Baker. Secretary of Energy. [Laughter.]
    Mr. Aaronson. There is an answer now because of the FAST 
Act, and security emergency authority now resides at the 
Department of Energy.
    Chairman Johnson. So who would make the call?
    Senator Peters. Who would make the call?
    Ms. Evans. The Secretary would make a recommendation to the 
President saying that we are in a grid emergency, and then the 
President would then make the call. It would be based on 
information that we are jointly working with, with the 
industry.
    But the FAST Act put that in place, and one of the things 
that I am working on right now is what is that level of 
gradation that goes up, that constitutes this is a grid 
emergency, so therefore the Secretary needs to make that 
recommendation.
    Senator Peters. How much time do you need?
    Ms. Evans. How much time do we need to declare?
    Senator Peters. To go through that process.
    Ms. Evans. I am accelerating everything we are doing. We 
are testing several data collection things now that we should 
be with the National Labs, have an operational capability, to 
see if we can do it by April, of having the data that then can 
get into the hands of everybody looking at it to be able to 
then say, OK, at this circumstances, it constitutes this. We 
would work jointly with our whole-of-government approach and 
with the National Security Council to make that determination.
    Senator Peters. But if NOAA gave you a warning that a major 
space weather event is heading here now, how much time do you 
need to go through that process?
    Because I think, Dr. Kasper, you said sometimes it is 10 
minutes warning. That is not going to happen, really.
    Mr. Kasper. Right now, with our spacecraft at L1 with 
NOAA's DSCOVR spacecraft, for a severe storm, it is 19 minutes. 
For typical storms, it is more like an hour.
    Senator Peters. So 19 minutes to an hour, would you act 
that fast?
    Ms. Evans. Yes, sir. The intent is to have the information 
available for the Secretary to respond that fast for the 
Nation. That is what we are building.
    Chairman Johnson. But would the order be to shut the entire 
grid down?
    Ms. Evans. Not necessarily.
    Mr. Aaronson. Not necessarily.
    One of the things that the Sector Coordinating Council has 
been doing in partnership with the Department of Energy is to 
develop template orders, so that we are not figuring out what 
orders look like the day that they happen, but actually have 
some things and have an understanding of if this, then this. So 
that is going to be extremely important.
    I would say shutting down the grid so that equipment is not 
impacted is an option, but one of the things that the existing 
operating procedure standard requires would be--or not 
requires, but enables is reliability coordinators who have 
responsibility for liability within a region would be able to 
spin out the additional reserves or have additional capacity in 
that particular area in case of some sort of loss of load.
    I would rely on the engineers over here, but there are a 
lot of different ways to protect against GMD.
    Chairman Johnson. The point of shutting down would be to 
protect the equipment. You are not talking about throwing more 
things on the load.
    Dr. Baker, you have been pretty patient. Then Mr. 
McClelland. Dr. Baker.
    Mr. Baker. In answer to the question about what do we need 
to do, one of the most important things is to get EMP up on the 
same footing as GMD. We have a GMD standard. There is nothing. 
There is no guidance at all on EMP. As a result, industry is 
not doing very much of anything.
    On the question of modeling, we have done modeling of the 
grid. FERC has done it. Wellinghoff pointed to if you could 
take out--if the right nine substations, you could shut down 
the United States for 18 months, 9 substations. We have a 
pretty good idea.
    Chairman Johnson. Do not tell us which ones. [Laughter.]
    Mr. Baker. What?
    Chairman Johnson. Do not mention which ones.
    Mr. Baker. OK.
    But there have been models, and there are things that we 
know that we could take charge, move out now to protect the 
substations that are the key to keeping the bulk power grid 
running, anyway.
    Chairman Johnson. We know that, but we have not done 
anything about it----
    Mr. Baker. No.
    Chairman Johnson [continuing]. Or very little about it.
    Mr. Baker. Right.
    Chairman Johnson. Do you dispute the fact that we do not 
have any EMP standards and we are really not doing anything 
about EMP.
    Mr. Roop. The industry has done quite a bit, ever since the 
FERC comments over the number of substations could be impacted 
across the grid. That is one of the reasons why we work with 
Oak Ridge Labs and the industry to develop the probability risk 
assessment is to really understand where your stress points 
were.
    That has been shared with the industry. It has really 
helped us pinpoint which substations need to be hardened, 
physically from cyber, for EMP, and we have almost completed 
that hardening, all of ours.
    The industry is doing the same. It has been shared through 
NERC now in a guide.
    So there is a lot that has been done, and we have refined 
the early FERC work. I think we have better actions as to where 
to go. We have done a lot. That is the type of risk you do not 
share because it is telling the adversary what the targets are.
    Chairman Johnson. I understand.

              OPENING STATEMENT OF SENATOR TOOMEY

    Senator Toomey. Can I ask you a quick technical question? 
In the scenario in which you had some notice of a significant 
GMD event and you were able to shut down some portion or all of 
the grid, how much protection does that provide? When it 
passes, do you turn the switch back on, and everything is fine, 
or has a great deal of damage been done, but not as much as 
what would have been done? Doctor.
    Mr. Baker. I was involved in a big DOE session to define 
their EMP action plan, and we had a very large utility, 
electric power grid contingent there. They told me--I was 
leading the discussion--that they wanted to resist shutting the 
grid down at all costs, that shutting the grid down would cause 
more problems because of the startup voltage transients. When 
you try to restart the grid, you get these electric voltage 
overshoots that will damage equipment, and so a shutdown is not 
a panacea.
    Chairman Johnson. That is not a solution. Mr. McClelland.
    Mr. McClelland. There is so much to comment on.
    To begin with, if we look at operator action, manual 
action, there is a standard by NERC now, EMP 10, that does 
require a space weather forecasting and mitigation plans in the 
event of a space weather event.
    To answer the question from earlier on, a good forecast 
would help an operator better prepare to take action.
    However, the Commission found that operator action alone is 
not sufficient. There will be times whenever operators make 
errors, there should be automatic equipment available that 
would override and take action to stop the GMD event.
    To the other point concerning the rigor of the NERC 
standards, any level, any threshold that one picks for GMD is 
certainly going to be exceeded.
    The question would be how far in excess, or a better 
question would be what to do to automatically protect the 
equipment.
    The assessments that NERC lists are the beginning of a 
process. That process, the expectation I would have for the 
process, is that any transformer manufacturer or any 
transformer owner is going to look at the exceed level. What is 
the level at which that transformer is going to be overwhelmed 
and take damage or be destroyed? At that point, that 
transformer should be tripped off automatically. That is not an 
expensive solution. That is a very targeted solution that can 
be put into place. The technology exists, so a relay with a 
pickup coil on the neutral bushing of the transformer, and then 
you can debate and study what level of space weather event you 
might have.
    Also, to the question about notice, although better 
forecasting would certainly help with the GMD event, if the 
operator were prepared to take action and everything goes 
right, it is not going to necessarily help with an EMP event.
    One of the nice things about mitigating GMD, if the GMD is 
done right, it will also mitigate E3 on the EMP event, 
regardless of what level one selects.
    Randy and I can talk about that level later on, but for a 
GMD event, FERC did find--and it is a matter of perspective 
also. You asked earlier on why the subject-matter experts 
disagree. It really is a matter of assumptions, and it is a 
matter of a basis for setting the threat. What is the threat, 
and how much rigor do you place on the threat? What level of 
space weather, for instance, do you pick to mitigate against?
    But if you are doing it on a protection basis--because even 
if you harden a transformer, at what point will the transformer 
be exceeded?
    Chairman Johnson. Let me just say--and I will turn to Mr. 
Kasper--if I were king, I would say shutting down the grid is 
not an option, it is not going to happen, cannot react in time. 
It is just going to be too damaging in and of itself. That goes 
to your automatic mitigation. That is what we are trying to do. 
What technology can we bring to bear?
    Richard Garwin said $100,000 capacity for protection of all 
this. I do not think that is necessarily true. You are talking 
some kind of breaker system.
    For GMD, might be able to do it. EMP is just too rapid-
acting.
    What we are trying to accomplish in this roundtable is to 
set up a--I do not want to say a ``process.'' I want to come up 
with things we can actually do. We will spend the money.
    We heard in your testimony. You said about $50 billion. In 
comparison to the catastrophe, that is money pretty well spent, 
and it can certainly be recovered through fees and everything 
else.
    We have to come up with some action items, even if we do 
not get it right. I do not care if it is not 100 percent 
perfect. It is a lot better than the position we are in, and it 
is well worth the money spent to mitigate the risk. Mr. Kasper.
    Mr. Kasper. One of the items I touched on earlier was the 
regional forecasts, and I think one of the issues right now is 
not only do we only provide an hour to 20 minutes warning, but 
we have like a thumb-up in the solar wind, ``It is OK,'' ``It 
is getting intense now.'' Well, you can clearly see there is 
more than one parameter that affects the severity of the storm.
    I also think if we could deliver a regional forecast, I 
think it would be a lot easier to contemplate shutting off New 
England for a few hours than shutting off all of North America.
    So now only do I think we need spacecraft that are closer 
to the Sun to give more time, but we need to be able to provide 
people with better data than just one number for how all of 
Earth is going to respond to each event.
    Chairman Johnson. Mr. Roop, again, please speak to shutting 
down the grid.
    Mr. Roop. Yes. That is something we do not do lightly. I 
will be very honest with you.
    Chairman Johnson. Right. And why?
    Mr. Roop. But we have a lot of resiliency built into the 
grid, and what we have done with the power transformers is--
typically, they have a lot of ``thermal margin,'' we call it. 
That is what they get stressed at.
    What we have done now is every one we buy, it has 125 
percent overload, extra thermal margin to it, and they have 
also have components to reduce the stress level from heating.
    If you overload a transformer or you overheat it, we may 
lose life, but that does not mean it is going to fail right 
away.
    So you take risk every day. If we have a major event going 
on in the United States today and we have to overload a 
transformer for a period of time, we will do that and take risk 
on the loss of life of that unit. That is what we would do in 
those kind of events in lieu of collapsing the grid.
    Chairman Johnson. It all depends on the magnitude of the 
overload, and the problem with EMP or a significant GMD event, 
the overload may be so dramatic that there is just no safety 
factor in the transformer, right?
    Mr. Roop. Well, if you get to that level, you are going to 
have voltage collapse, and our protective systems will drop the 
system out automatically at that point.
    I call it ``safety valves,'' for a better word, in the 
system built in to be able to react to that.
    We also have system operators that if they see a severe 
contingency, they have the rights and the authority to drop 
that area, and we do that.
    Chairman Johnson. But, again, EMP occurs in fractions of a 
second, right?
    Mr. Roop. That is right.
    Chairman Johnson. Dr. Baker.
    Mr. Baker. This same group of industry representatives at 
the DOE plan development, I was surprised. They said, ``We 
would like to protect the grid, so we do not have to shut it 
off.'' There are protective devices where--they are still under 
test, but it may be possible that you could at least protect 
portions of the grid, so it would operate through a GMD, a 
severe GMD, or an EMP.
    Chairman Johnson. Again, that is really the purpose of this 
roundtable is to identify those priority items that we can 
actually do. If there is equipment now and we can upgrade as 
technology improves, but start doing something now.
    Senator Peters. Mr. Vespalec, you mentioned something in 
your system. What was it? A device?
    Mr. Vespalec. A neutral-insertion device.
    Senator Peters. Yes. Would you elaborate on that, and would 
that be a potential action----
    Chairman Johnson. That is strictly for GMD, though, 
correct?
    Mr. Vespalec. Well, it has some effect too on the E3 for 
EMP.
    Senator Peters. Yes. Would you elaborate on all that and 
let us know what it would protect?
    Mr. Vespalec. It is an automatic device that senses when 
that DC type of current is flowing, and it will interrupt it to 
protect the transformer.
    It is a prototype, what we have, and we put it in a 
substation with just one transformer, knowing that if it 
interrupts that current, we want to know what would happen to 
the rest of the system. It is a little bit like Whack-A-Mole. 
If you stop the current flowing in that transformer, it has to 
go somewhere. It looks for another path.
    Chairman Johnson. Right.
    Mr. Vespalec. We are trying to monitor to see how is this 
going to react with the rest of the system and the effect to 
other transformers.
    Chairman Johnson. I am certainly mindful of the complexity 
of this and that you put something in here and you have to be 
really careful about how to fix the rest of the grid.
    Mr. Vespalec. Correct.
    Chairman Johnson. I do understand that.
    Again, if you want to talk, put your name tag up like Dr. 
Baker.
    Senator Peters. Mr. Aaronson, go ahead.
    Mr. Aaronson. Thank you both.
    Similar to Mr. McClelland, I have a lot that I want to 
react to, but I think what you just heard from both Mr. 
Vespalec and Dr. Baker about the complexity, about the testing, 
and the potential unintended consequences is a really big deal. 
This notion that nothing is happening, except we are admiring 
the problem, actually we are admiring the problem in the wild 
right now by actually deploying different potential solutions 
and mitigation strategies.
    Some of the mitigation strategies, as you are noting, are 
to prevent impact from happening.
    Another way that we look at resilience is you cannot 
protect everything from everything all of the time. If we are 
talking about an intelligent adversary, we have to be right 100 
percent of the time. The adversary has to be right once. We 
also have to be focusing on response recovery, preparing for a 
potential impact.
    In addition to what we are talking about with blocking 
devices and some of those things, Mr. Roop referred some of the 
spare equipment programs that we have.
    Something else that we are developing at the direction of 
the Sector Coordinating Council known as ``Supplemental 
Operating Strategies (SOS)'', this notion that can we operate 
the grid in a degraded sense. So there is impact.
    I will push back on that nine substation remark real 
quickly too. That was based on static modeling, and the idea is 
if those nine substations evaporated and we had no other 
contingencies, there would be impact to the system. Even if 
they evaporated, we have other ways to pick up that load. We 
have other ways to engineer around those problems.
    You see it all the time. You saw what happened in Mexico 
Beach, for example, down in the Panhandle of Florida after 
Hurricane Irma this past year--or Hurricane Michael, rather, 
this past year. There was impact there. We were able to rebuild 
the system in a short order, and the rest of the surrounding 
area was able to get back up and running fairly quickly.
    This is one of the ways that we are taking physical natural 
hazards and applying our resilience and recovery methods to 
potential cyber, physical, or EMP-type events.
    So looking at it at all hazards, looking at it not just 
before the incident, but what we do to respond and recover, 
having Supplemental Operating Strategies, being able to operate 
manually, being able to move equipment around, these things--
and I think you noted it Chairman Johnson. These pieces of 
equipment are enormous. They are critical to the effective 
operation of the grid.
    We have a lot of spare equipment that is not operational 
today that cannot just be put into service in a place where it 
might need to be, but also we have been working with, again, 
cross-sector, the transportation sector to be able to move 
these things as expeditiously as possible.
    The last thing I want to say--and I am sorry that Senator 
Rosen is not here anymore, but very direct question of what can 
Congress do to help, I think we are all kind of falling on some 
things that would help.
    Money is always. If you are talking about national security 
and you are talking about mil spec, rather than customers 
bearing the cost of something that is a national security 
issue, there are ways that I think we can find Federal money to 
do some of these things.
    I think in the spirit of money, also, working with us in 
our commissions at the State and Federal level so that these 
costs can be recovered, so support for cost recovery, having 
your leadership, ``This really matters, State commission. This 
is why this company is coming for cost recovery,'' I think is 
going to carry a lot of weight.
    Earlier warning was already discussed.
    Chairman Johnson. Let me just chime in.
    Mr. Aaronson. Yes.
    Chairman Johnson. As a fiscal conservative, I will carry 
the water as long as I know what it is we are supposed to do.
    Mr. Aaronson. Amen.
    Chairman Johnson. That is what has been so frustrating to 
me. It is just what can we do? Let us actually act. Let us 
actually spend some money on things that actually mitigate.
    Mr. Aaronson. This is why EPRI's work is so important.
    I think if we would have done some of the--``Oh, this is 
the right thing to do. It is mil spec. It is easy. We have done 
it for 20 years. Why are not we doing it on the electric 
sector?'' we might have had unintended consequences. We might 
not have had sound mitigation. We probably would have lost 3 or 
4 years.
    By doing sound science not, getting specific mitigation, 
and then--and I do not know if Randy is able to say this or 
not, but following this report, companies are not just going to 
take the report and say, ``Oh, now we know what mitigation 
looks like.'' Companies are going to pilot some of these 
mitigation strategies so that we can do it out in the wild.
    Once we have a better sense of what mitigation looks like, 
there might be ways--maybe very specific asks for funding.
    The last thing I would say, access to classified 
information, I do not think this has been as big a problem this 
go-around with EPRI and their work with DOD, but being able to 
see what does an EMP from a high-altitude nuclear weapon really 
look like on our system at a very highly classified level so 
that we can make informed decisions based on the things that 
Dr. Baker probably knows.
    Chairman Johnson. OK. Mr. Harrell, Dr. Baker, and then Ms. 
Evans.
    Mr. Harrell. Thank you very much.
    Just as a former regulator and kind of somebody who has 
been regulated and now kind of seeing this through a government 
lens, I do want to suggest that a lot of investments within 
industry, within particularly this industry, have been made.
    I will point back to some of the action items that have 
come up over the last number of years, really since 2006-2007 
timeframe, and I will point to the grid security exercise that 
NERC did many years ago.
    The first one was back in 2011. Every other year, there has 
been an exercise since, and they have really taken a hard look 
at some of the catastrophic grid reliability issues, and this 
certainly would be in that same vein.
    I do want to suggest that there is a lot of work and a lot 
of thought that has gone behind a reliability issue.
    As DHS pushed out their 2018 strategy and soon to be an 
implementation plan, I do want to suggest that we have started 
to get a lot more granular as to the risks associated with not 
necessarily EMP, but all risks.
    So right now, we are in the process of moving toward 
mapping the national critical functions, and what does that 
mean kind of underneath it where we get a little bit of 
granular? The things that we need in which to operate critical 
infrastructure in this country, what is it? So that we can kind 
of pinpoint what actually needs to be mitigated based off of a 
risk.
    Chairman Johnson. That is fine. I want to solve all the 
problems, but I would like to solve this one now. Let us kind 
of take a step-by-step approach.
    I believe it is Dr. Baker and then Ms. Evans.
    Mr. Baker. Yes, a couple of things.
    One is the NERC exercises did not include EMP, at least to 
my knowledge. The other point is I would venture--this is 
something we need to check, but I suspect if you protect 
transformers to the EMP E3, as specified in the Mil-Standard 
188-125, they will also survive any GMD.
    Now, we have not done any testing of the large 
transformers, but the first transformer, which Duke Energy has 
made available, we are going to test down in South Carolina.
    I think we need to look into the possibility that if you 
protect the heavy duty grid components, the transformers and 
substations and generator step-up transformers to the EMP E3, 
they will also survive GMD.
    Chairman Johnson. But, again, they are still vulnerable to 
E1 and E2, correct?
    Mr. Baker. Right. But I am just looking at the GMD.
    If you protect to the EMP standard, mil spec, you will also 
have protected to GMD.
    Chairman Johnson. OK. I think I have always assumed that. I 
thought GMD pretty well was EMP, correct?
    Mr. Baker. It is very close, but we need to do some 
testing, obviously.
    Chairman Johnson. Good enough for government work. 
[Laughter.]
    Mr. Baker. But, again--and I am pushing back on what Randy 
said--the Mil-Standard 181-125 tells you how to test 
transformers, 1,000 amps per phase, and that is unclassified.
    Chairman Johnson. I am going to lose Senator Peters here 
pretty quick, but do not worry. I will stick around.
    Senator Peters, do you have any other questions before you 
have to leave?
    OK. Ms. Evans.
    Ms. Evans. Oh, thank you.
    The one thing that I really want to stress and I think Dr. 
Baker has put this in his action items is it is not to reinvent 
the wheel but to leverage a lot of the work that has already 
been done by DOD.
    Our National Labs, because a lot of this stuff that people 
are talking about is, oh, we are actually testing on the live 
system, we have directed our National Labs to be able to 
actually simulate and do assessments under these scenarios.
    To your point about you need to have the data in order to 
be what can we do today, what is the long-range plan, and what 
is that road map, that is specifically why we are a putting 
this road map together so that we can have this data.
    But the labs are working on this now. We--and whether you 
agree or not--and I think it has been said by DHS and also by 
Caitlin earlier--is that the risk of some of this is low in how 
it is going to happen, but when it does happen, the effects are 
catastrophic, right? So we all agree on that.
    So the way that we are doing the work is prioritizing it 
based on the risk across the board, but taking into effect, 
especially what Mr. Aaronson has said, is, OK, we do this in 
other areas, so this is another threat that we have to build 
into the current scenarios that we have.
    To your point, there is testing. There is the assessments. 
We are leveraging the National Lab capabilities because they do 
the work for DOD as well. So we are not reinventing that. We 
are trying to make sure that we have the data that we can share 
out so that it informs everyone's decision as we go forward.
    Chairman Johnson. The extent we are designing solutions, if 
you can have a solution for multiple problems. If you are shut 
down and you have to recover, probably similar process, whether 
it is cyber, whether it is EMP, whether it is GMD.
    Ms. Evans. Absolutely.
    Chairman Johnson. So, again----
    Ms. Evans. So you have to be able to test that scenario in 
a testing lab environment because you really do not want to 
affect your customers while you are putting on, OK, this is a 
prototype equipment. What is the effect of that going to be? 
What are the scenarios? What are the assumptions if we 
implement this type of standards?
    We have directed the labs. They have been working on this 
since--on 2018 and 2019, we are continuing this work, so that 
we can say, ``And here is the data. Here is the impact. Do you 
want to accelerate that? Because that is a risk that we are not 
willing to take as a Nation.'' That is the kind of information 
I think Congress needs to have to be able to get to the point 
that you want to take an action and I am willing to do this.''
    Chairman Johnson. I think that is the purpose of this 
roundtable. I realize this is, hopefully, a very low 
probability. Certainly, EMP is a very low probability. I think 
it is a growing probability, unfortunately. GMD is not if, but 
when.
    So we are trying to raise this profile. We have sat back 
and we just have not done very many things. It has not raised 
the type of--let us face it--the awareness like climate change. 
Let us throw hundreds of billions of dollars at climate change, 
just in case. Well, I think we ought to do something just in 
case here.
    A little off point, because I am the Chairman of Homeland 
Security and on Foreign Relations, I am aware of what Russia 
did from a cyber standpoint in Ukraine, and it is my 
understanding, being nontechnical, the only reason Ukraine was 
able to reestablish and startup their grid is because they had 
the old-fashion breakers.
    I know there is a bill pending. I think it is Senator King 
and Senator Risch.
    By the way, I was at Idaho National Lab, great facility, 
wonderful people, talking way over my head, but I appreciate 
that.
    I think $10 million a study, where should we maybe put some 
lower-technology breakers? I am hoping all of you take a look 
at that as well.
    Mr. Roop, are you smiling on that one? We will get back 
into EMP GMD as long as I have raised that issue. What are your 
thoughts on that?
    Mr. Roop. Well, what we have tried to do in the design of 
our system is have manual override so we can bring the system 
back up. That is extremely important, and you use a human 
remote terminal unit (RTU), if you have to, to try to bring 
your system back. We have manual overrides built in our system.
    The problem is some of the protective relaying with the 
dynamics we have on the system now, we have to use power 
electronic relays or else the system gets unstable. That is the 
reason why this next point, the next phase with the EPRI work 
is so important. It is how I protect those relays cost 
effectively is to me, where we have to get soon as an industry 
so we can fast deploy that.
    So there are some very specific research areas that we have 
been led to with the EPRI work. The stuff that is low-hanging 
fruit--and I will call it--it will not hurt the system, we go 
ahead and do. We have already done that in our standards. The 
industry is doing it. Other utilities across this industry are 
already looking at the preliminary reports with EPRI, and we 
have been doing that across the networks.
    But there are some specific areas that we really need to 
address quickly if we want to get ahead of this problem, and 
that is where the labs can help us because if some of the 
technology we try do not work, we are going to need to figure 
out what will work. So that partnership is extremely important 
for us, and that is where the government really can help us in 
the next phase here.
    Chairman Johnson. But, again, do you not agree that until 
the government establishes a standard, you are going to be 
incredibly reluctant to invest a whole lot of money? Because 
you just might get the standards next year and have to redo the 
whole thing. Is that not a real deterrent?
    I appreciate what Dominion has already done, what Edison 
has done, but I think you probably would have done a lot more 
if we would had given you some kind of basic standards to 
adhere to.
    Mr. Roop. That always makes it easier, but I am not sure 
standards is the answer in this case, at this point yet.
    Chairman Johnson. OK.
    Mr. Roop. We really need to know what to do, and that is 
where I am at right today, I think.
    Chairman Johnson. I want to respond to the people putting 
the name tage up, like this.
    Dr. Baker. I got rules.
    Mr. Baker. Yes. Good point from Roop there.
    Another thing--and it is going along with his observation--
one of the things that we really need are some national test 
beds that are dedicated to testing integrated systems, the 
relays, the generation stations, the substations in a connected 
mode.
    We found with EMP that assessments and models that are just 
based upon analysis are wrong. They are wrong. They are 
inaccurate. You may as well flip a coin as to whether the 
system is hard or not. The only way that you get any kind of 
confidence that you have a system that is hard is to test it, 
and so these test beds are important.
    Chairman Johnson. Creating a test bed is not that 
expensive, is it? I know you have one in Idaho.
    Mr. Baker. Idaho is building one. There is one at Tennessee 
Valley Authority (TVA), and there are some in situ tests that 
are being set up. But that is an area where I think funding 
could be very helpful.
    Chairman Johnson. Mr. McClelland and then Mr. Aaronson.
    Mr. McClelland. So there are really two aspects to this. 
One is the natural threat, and on the natural threat side, I 
think you have correctly said that you have to narrow the 
mitigation action.
    Right now, it is based on operator action, and I would say 
that automatic protection measures should also be considered 
and strengthened, and that is in the implementation plan.
    If I get a level that overwhelms the transformer, I could 
still take that transformer off automatically. It is isolated 
to the transformer. The whole grid does not come down.
    But when it is----
    Chairman Johnson. But, again, do you have enough time even 
with GMD?
    Mr. McClelland. I am sorry?
    Chairman Johnson. Do you have enough time to do that even 
with GMD?
    Let us say it is kind of localized. We have had this in the 
past, go back and----
    Mr. McClelland. No, no, no, no.
    It would have to be--in my opinion, you should not--as an 
engineer that has been in the industry, one should never rely--
if it is a critical function, never rely on operator action 
alone. There are always automatic controls, automatic relays, 
automatic operation of the equipment.
    Chairman Johnson. Again, do the automatic relays work in 
GMD?
    Mr. McClelland. Yes. You can install automatic relays in 
GMD, and I will talk with Dave after this. But to sense DC, DC 
input on a transformer is not--in my opinion, it is not 
difficult to sense that operator relay and take that particular 
transformer off because, if you looked at some of the latest 
modeling, the GMD vectors can be very specific to very 
different transformers under different GMD scenarios.
    Chairman Johnson. Was that part of your standard, then, 
that FERC gave to NERC, gave to industry?
    Mr. McClelland. Absolutely not. It was not part of the 
standard, but it was a baseline. As I said, those are baseline 
practices that start the discussion and start the industry 
moving.
    So now everyone has a requirement. They have to evaluate 
their system. They have to do an assessment. They have to do a 
correction action plan, and they have to mitigate to certain 
levels.
    Now, if it is 8 volts per kilometer or if it is 75 or 85 
amps per phase, one could argue that that is certainly going to 
be exceeded or not adequate for a significant GMD event.
    But, again, to the point, you will always have GMD events 
that exceed that threshold, and so in that case, I would submit 
one would never count on a single standard to protect that 
transformer. One should put protection on that transformer, and 
that is something industry knows how to do, and they have done 
it forever.
    So that is something that could be done, and I feel it 
could be done targeted, and it could be done, I think, quickly 
and not very expensive. The Commission can provide cost 
recovery, but I am sorry. I did not want to miss the EMP issue 
either because EMP, the bad news is you have an intelligent 
adversary that studies our systems and vulnerabilities and is 
building weapon systems around those vulnerabilities.
    The good news is you have an intelligent adversary that 
studies our systems and vulnerabilities and is building weapon 
systems around that because to DOE's work, they are working on 
defense critical electric infrastructure. If those facilities 
survive in the event of an EMP attack--and that is a very 
narrow subset. If they survive, my personal opinion that is a 
strong dissuasion for an adversary to perpetrate an attack.
    Chairman Johnson. For a couple nuclear powers, but there 
may be a couple that I am not sure that you can do anything to 
dissuade them.
    Mr. McClelland. That is correct. No doubt. That is where it 
is a broader subset to say what are the major societal impacts.
    We are losing very specific, very critical facilities, and 
that comes into that narrowing, the modeling, the engagement 
with industry to identify those facilities and put protection 
in place.
    Right now, DOD, DTRA, is doing a tremendous job in 
hardening the DOD assets. They are moving with all haste, and 
they are spending a lot of money.
    The same thing can be done with proper engagement with the 
industry, not to set a standard, but to engage with them about 
what are these critical--brief them, to their point, about 
classified information. What are those critical threats? Is it 
real? What can we do to protect against it, and what is our 
really all levels of protection mitigation?
    Just to go to an earlier point, there are still entities 
that have analog, old electromechanical relays out there, and 
if you read the System Electronic Registration Approval (SERA) 
study, they do very well against EMP attack. It may not be 
possible to put them everywhere, but in cases where operations 
could be dead-banded with electromechanical relays, that is an 
excellent solution set. That is one that should be considered, 
and that is one that some of the international partners who we 
are working with--that is one that they are employing.
    So there are targeted mitigations for specific systems that 
can be put into place. These can be done quickly. My opinion, 
they can be done quickly with industry engagement, proper 
incentives, and I really do not see a reason----
    Chairman Johnson. Reimbursement.
    Mr. McClelland [continuing]. We could not get it.
    Chairman Johnson. Mr. Aaronson, first of all, respond to 
what you talked about, surge protection on transformers for 
GMD. But just in general respond, and then make the point you 
wanted to make.
    Mr. Aaronson. So, no, I cannot respond on that. These guys 
over here can.
    I am actually really glad that Mr. McClelland because I 
want to associate myself with a number of his comments. I think 
he said a lot of important things. He was talking about 
prioritization there at the end. Is it the Defense Critical 
Electric Infrastructure (DCEI)? Is it that one order, one level 
down to some of the societal needs, life, health, safety, first 
responders, things like that?
    The President's National Infrastructure Advisory Council, 
recently did a report--I happen to be on the study group--for 
catastrophic power outages, and I will say we have learned a 
lot from recent history, not just the storms that have impacted 
most of the United States or the wildfires out west or what 
happened in Puerto Rico, but now to bring back what you brought 
up about Ukraine, those are the supplemental operating 
strategies that we are talking about.
    What happened in Ukraine, I like to tell people, is my 
favorite kind of incident because it happened to somebody else, 
but we can learn from it. And we are.
    So you are exactly right. One of the reasons that they were 
able to get back up and running as quickly as they were--so 
225,000 people lost power for a few hours. It was a bad day, to 
be sure, but it was not catastrophic to that country. They were 
able to go back to the good old pistol-grip handles, and I like 
that, the human RTU.
    In order to have that human remote terminal unit, you need 
to be able to talk to that person in the field. You need a 
person in the field who is trained on what it is that they are 
going to be doing.
    Now, it may not pretty. The other joke we have had, it is 
not just Supplemental Operating Strategies. It is the MacGyver 
Project. How do we hold the grid together with bubble gum and 
duct tape in the event of a truly catastrophic incident?
    I will give an example about sort of levels of magnitude 
for an incident. In Super Storm Sandy, there was a company that 
had storm walls for one of their key substations for a 14-foot 
storm surge. The highest that had ever happened in that 
location was 10 feet. They were way above whatever a baseline 
storm would do. Super Storm Sandy was 16 feet of storm surge.
    Since then, they have not ripped out that substation and 
started something new. Instead, they have actually built some 
pretty creative, pretty low-tech solutions. They have storm 
walls that one person can go in and shut.
    I think what we have to do is not just rely exclusively on 
standards, to the points that have been made. They do provide a 
great foundation, but also understand that there are going to 
be incidents that strain our imaginations of what could happen. 
Again, this goes back to that left of boom versus right of 
boom. We should absolutely spend time and resources and effort 
to prepare, protect, detect, defend, exercise, but also to 
prepare, to respond, and recover, so----
    Chairman Johnson. We should be looking for simple 
solutions. Take a look at after the September 11, 2001 (9/11). 
The simplest solution and most effective, we just hardened the 
cockpit doors, kind of like ``duh.''
    The nuclear accident in Japan, put cooling towers up on 
top, OK? Do not rely on the electrical pumps.
    Mr. Aaronson. That is right.
    Chairman Johnson. Again, yes, absolutely. Do not look for 
some elegant, expensive solution. Look for the simplest 
solution as possible.
    Real quick before I go to Dr. Baker and Ms. Evans.
    Mr. Roop, I would just like to ask your opinion of 
basically what Mr. McClelland was talking about on GMD, the 
surge protectors, easy, simple, boom, or not?
    Mr. Roop. I am not sure exactly the surge protector he has 
referred to.
    We use metal-oxide varistors (MOVs) on our transmission 
system, and we are looking at very high-speed surge protection 
on the secondary for our relay protection.
    The problem is I have 65,000 relays in my system, and about 
60 percent of them are digital. They have about 30 or 40 points 
on the back of that relay. If I had to put a surge protector 
across all of them, I have to make sure I do not short out 
something or open something that could create another 
consequence. That is why we are trying to see is there a 
simpler solution than putting one on every terminal point, and 
that is where we may need the labs to help us figure out what 
is the right answer to that.
    As far as the comment about electromechanical relays, there 
are areas in our network we can use them, and we are still 
using them.
    The suppliers are trying to get out of that business, so 
that will be a problem for us down the road. So that is also 
part of our strategy, but they cannot be used everywhere on 
some of our extra high voltage (EHV) systems because of 
stability concerns. But that is some of the things we have to 
do.
    Chairman Johnson. So there is one of the problems you have 
to solve is you have to maintain a supplier base, and that is 
maybe something you have to support if we view that as a 
mission-critical or national security issue. Dr. Baker.
    Mr. Baker. Because EMP affects such larger areas--you are 
talking about footprints that are 1,000-plus miles in 
diameter--I think that we do need to have some standards or 
guidelines because the grids are so interconnected that if you 
do not have some uniform protection on the grid, if the 
protection is just sort of random, one part of the grid failing 
will pull down other parts of the grid, as we saw in 2003. A 
small perturbation in one location caused a large part of the 
Northeast grid to change.
    I think standards are something that should be on the 
table, and we ought to think about that, just as we have the 
GMD benchmarks.
    The other point I would make is I think right now, there is 
entirely too much emphasis on recovery. The way I am reading 
the tea leaves is people have this idea, we will just let the 
grid fail, and then we will just have elaborate recovery plans 
to be able to pick up the pieces afterwards.
    We need to protect as much and keep operating as much of 
the grid as possible, so that we do not have to get into these 
modes where we are operating in the dark. We want to keep as 
much of the grid up as possible.
    Chairman Johnson. I want to quickly go to Ms. Durkovich 
because I know you have a timeline. You have not spoken yet.
    Ms. Durkovich. Thank you very much, Chairman, and I want to 
pull a string on something that Scott was talking about related 
to just lessons learned from other environmental hazards.
    Certainly, the industry, year after year, gets better in 
both preparing for and responding to hurricanes. That is in 
part because there has been a very healthy dialogue around 
forecasting, and the sooner that industry can know about a 
storm, the sooner they start to take action.
    From the moment that storm, that ingest becomes a named 
storm, things are done across the electric sector. I think that 
is an important part of the conversation certainly that we had 
when we did the Space Weather Task Force is really learning 
about what are the timeframes that industry needs to begin to 
take action. I think that is an important conversation that 
needs to continue.
    One of the things that I think would be interesting, again, 
around preparedness, especially as we come to some conclusions 
about what are helpful mitigation measures is each year, FEMA 
hosts an annual hurricane briefing, where they bring together 
all of the interagency. Industry comes in. There is also a 
national hurricane conference. The goal of this is both to talk 
about what the hurricane season is going to look like. Do we 
expect it is going to be bad? Do we expect it is going to be 
good? We know a little bit, something about the cycles of space 
weather, right, and where we are and what we can anticipate, 
and especially if we are in this--if not, when and the 100-year 
storm window.
    I also think that it would serve to both continue to raise 
awareness. You are sitting with people who think about this, 
who have learned forward. There is a large part of industry and 
other industries, the mid to small-size power providers that 
maybe do not have as much awareness or as much resources, and 
we need to continue to make sure that what David is learning at 
Dominion can be passed down to them, but that we can also learn 
from events where we do have near-misses or mild storms, what 
worked, what did not work, and continue to promulgate those 
among industry and academia.
    I think it is a simple thing, but doing it on an annual 
basis continues to raise awareness about the risk. That is 
where we have a problem. It brings people together to talk 
about what we know is working, what we can do better, and I 
think there is an element here that might also contribute to 
public awareness about this, which I will tell you is very low.
    And you ask the average American. I will ask you when I 
stepped into DHS and into my role as Assistant Secretary, I 
certainly did not know that space weather would be something 
that we would be dealing with.
    Chairman Johnson. It is not why I ran for Senate.
    Ms. Durkovich. Thank you, if I do not have an opportunity 
to provide comments again, for including me today in this 
important conversation.
    Chairman Johnson. Well, thank you for attending, you raised 
a pretty interesting point. It kind of harkens back to some of 
the points that Dr. Baker made in his testimony.
    Here in the Federal Government, we are talking about the 
top down. What do we need to do? Top down. But there is an 
awful lot of bottom up. That is why I appreciate the types of 
things that Dominion Electric is doing on its own, absent 
better direction from the Federal Government.
    Again, thank you for coming and safe travels home. Ms. 
Evans.
    Ms. Evans. I wanted to follow on exactly what Caitlin is 
saying is that I think I would offer a way to look at this is 
that there are a lot of lessons learned from what we do from a 
natural disaster type of prevention, prepositioning resources 
in order to be able to do things.
    My particular office is focused on energy security as well 
as emergency response and cyber. So the whole idea is what do 
we have to look at from a sector-specific? How do we respond, 
and how do we preposition?
    I think some of the things that Dr. Baker is looking at is 
that that is after, as we continuously do things. OK. This is 
the way the response works. This is how things are happening. 
This is the data associated with it, and it leads into we 
should have a minimum standard.
    I think several of these things are going on concurrently, 
and to go out on one versus the other, it all has to inform it. 
I think that is really what--to Joe's point, we are doing these 
things currently. To leap right out and say yes, you have to 
have a standard, it is a long process, but it has to be 
informed by the practical exercises and activities that 
industry is doing now, so that we know what the impact of that 
is going to be, so that we can answer the question to you. So 
these are all going on concurrently, and it informs the 
standard process.
    I know you want an action like, yes, let us do a standard, 
but I think you want a standard that is informed that then can 
actually be able to say, ``Yes, we are prepared. We are 
prepositioning. We work with industry. We are utilizing these 
things going forward,'' and this is how the Nation is 
responding to the risk.
    Chairman Johnson. What I am looking for is--somebody 
mentioned the low-hanging fruit. Let us at least start doing 
the low-hanging fruit. You are never going to have perfect 
information. We have been doing this a long time, and I will 
still say there has been minimal mitigation efforts that would 
really be effective, that are really protecting us here. We are 
still incredibly vulnerable to this.
    I am trying to reduce our vulnerability. I am trying to 
take actions to start mitigating it, so that there is some 
level of survivability. Mr. McClelland.
    Mr. McClelland. I am not sure my comment will help in that 
perspective, but with your permission, I did want to make one 
clarification, and that was to the E1 mitigation that Mr. Roop 
comments on.
    E1 is not as easy. If there are electromechanical relays in 
place, E1 is--and if you can leave those in place, then you 
have a simple solution to leave those in place. Coincidentally, 
they are impervious to cyberattacks. So you sort of have a 
convergence of two threats there.
    But I do think that E1 is solvable if the universe is 
narrowed. To the industry's point, if this is truly a national 
security matter and an important and urgent national security 
matter and action needs to be taken, then the industry needs to 
be told that this is what needs to occur, and then the 
engagement has to begin--and if you want it done quickly, on a 
narrow subset. I would suggest that what the work that DOE has 
done and to some degree DHS also, but that narrow subset should 
pick up, to your earlier point on what are the best practices 
we are using with DOD--because we are rushing and with haste. 
We are mitigating against EMP at those critical DOD facilities.
    It is not going to do any good if they do not have service 
to the bases. So the point would be that is an area of focus 
that I think could be done quickly. It would be complex, I 
think to Dave's point, much--many of the relays, since the time 
I was in the industry have become digital relays. They are much 
more functional, and the grid is much more complex.
    But it can be done, and it can be done, I think, much more 
quickly on a narrow focus.
    Chairman Johnson. Let us face it. I think the IC will 
always assess that EMP is a very low-probability event, and I 
would agree with that. God, let us hope so.
    To a certain extent, I am looking at not a full solution 
here, but are there common solutions? That if you had an EMP 
attack and the grid was down, the same type of solutions, same 
type of recovery systems would apply to cyber or GMD as well? 
That is where I am--what are the common solutions here? What 
are the common mitigating factors we can do?
    I am not looking for perfection here. I am just looking to 
start taking some steps.
    Before we disband this, I do want to--because this is--as I 
read your testimony, Dr. Baker, one of the action items that 
really is very urgent is the whole issue about microgrids. I do 
not fully understand them, so I would like to have people 
respond a little bit to what Dr. Baker was talking about. There 
are more and more microgrids being established. It does 
increase the complexity of the grid, and if we do not--and the 
mitigation cost to military standards for E1, E2, and E3, and 
GMD is only 2 to 5 percent of construction cost. If all that is 
true, it would seem to me--and if all that is required is the 
Federal Government better create a standard for microgrids to 
have them put that into the construction process, we ought to 
do that pretty fast.
    I would be looking to Senator Murkowski and my Senate 
colleagues to raise the awareness, and let us get at least this 
done.
    I kind of want people's assessment of the whole microgrid 
issue.
    OK. There you go. I actually saw you wiggle.
    Mr. Aaronson. I knew I had to put the sign up.
    So a couple things about microgrids. I think people look at 
them as the answer to resilience, if only we had all this 
redundancy through microgrids.
    Well, the existing grid is effectively a grid of grids. 
That said, there is deployment of a lot of microgrids now.
    Some of the companies that are deploying them, non-
utilities, are doing it on a very low margin to be cost 
competitive in a lot of places, so 2 to 5 percent matters a lot 
to them.
    We see that problem with cybersecurity as well. You are 
talking about very competitive technology space right now. 
Adding complexity----
    Chairman Johnson. What is the cost of a microgrid? What is 
the cost range?
    Mr. Aaronson. I would have to ask one of these guys.
    Chairman Johnson. Are you talking $100 million? Are you 
talking about $5 million?
    Mr. Aaronson. Well, I mean, it really depends on the 
application.
    There is a good example of what would be considered a 
microgrid that is jointly operated or that is operated by the 
Hawaiian Electric Company.
    Chairman Johnson. I am an accountant and a business guy. I 
understand that 2 to 5 percent could kill us. That is where I 
think the Federal Government can step in. If this was such an 
important issue----
    Mr. Aaronson. Right.
    Chairman Johnson [continuing]. If this was so urgent, this 
would be a blown opportunity not putting the standard into 
those things. Just sort of allocate the money because it is 
well worth it.
    Mr. Aaronson. The 2 to 5 percent, that is something--so if 
you are talking about a microgrid deployment on a military 
installation, that is good for the military installation for 
them to island themselves, if necessary, or to support the 
surrounding community--again, there are examples of that. One 
is particularly well known out in Hawaii, Schofield Barracks, 
really built out a spectacular system. That is the kind of 
place where you would absolutely look at, and especially when 
you are talking about greenfield deployment.
    There are examples of some of our companies who are 
building new control centers, who are hardening some of their 
control houses as they build new substations.
    When you are talking about greenfield construction, adding 
2 to 5 percent, that is worth every penny.
    When you are talking about retrofit, the costs go up 
tremendously.
    Chairman Johnson. It is more expensive.
    Mr. Aaronson. That is right.
    With respect to the microgrids, though, I think what we 
have to do is look at it in two ways. One is if it is a 
microgrid deployment in a critical facility supporting critical 
load, we need to think about all of the different ways that we 
would harden and protect against--EMP, cyber, physical, etc.
    If you are talking about a more commercial application that 
does not have the same impact to life, health, and safety, 
well, they are going to try to be cost competitive in whichever 
way they can.
    I am sorry I do not know the hard numbers, but I do think 
you have to think about it from a cost-effectiveness standpoint 
and where the deployment is.
    The last thing I would say about microgrids is while they 
do add both resilience, because you have some redundancy and 
complexity, you still need that backstops, the enabler of the 
broader grid. That is where companies like Dominion and ATC and 
others come in.
    Chairman Johnson. Dr. Baker.
    Mr. Baker. The microgrids are normally used on systems that 
are so critical that they cannot stand outages. They cannot 
stand the .99 or .999 outage probability that you get with the 
rest of the grid.
    So the services, the infrastructure services you would be 
protecting are going to be very, very critical. So that is 
another impetus for looking at these.
    The other point I would make that Scott--echo his, you need 
to do not just EMP, but you need to look at cyber. When they 
install microgrids, they are connecting the microgrid controls 
to the regular grid controls and the controls on other 
microgrids. So they call this ``aggregation,'' and just 
remember this. Aggregation means aggravation in terms of 
vulnerability.
    But these things are proliferating and none of them is 
hard. I do not think they are either EMP or cyber-hard, most of 
them. So that is a low-hanging fruit for you.
    Chairman Johnson. You are talking to an accountant that had 
a PC with a 5\1/2\ inch floppy on my accounting system because 
I knew that would never get hacked. I think since I have left, 
they have improved that. I am reasonably cautious about those 
things.
    I am kind of out of questions. I think we have gone far 
enough here.
    I do again apologize for the clip nature of opening 
statements. I hope you found this informative. I hope you found 
it helpful. I certainly found it informative.
    I want to give you a homework assignment, if you choose to 
address it, because I did talk to Dr. Baker. I valued all of 
your testimony. I truly did. I read all of it, and it was very 
helpful.
    Dr. Baker, because of what he has done in the military, he 
has actually been participating in a system in government that 
actually did this, hardened it, but also in his testimony, 
throughout it, there were action items. I called him up, ``Can 
you lay those out as a priority?''
    What I would like all of you to do is make sure you have 
his testimony. I would recommend you read it, but then look at 
his priorities. You do not have to comment on all of it, but if 
you have a comment on his testimony or a particular action 
item, if you disagree with it, let me know. Then we can try and 
figure out where is the discrepancy there. Otherwise, what I 
will do is kind of view this as pretty authoritative and move 
forward based on that.
    So here is your chance to rip into poor old Dr. Baker and 
say, ``We do not agree with this guy.'' [Laughter.]
    Mr. Baker. You never explained that to me.
    Chairman Johnson. I have been doing this a long time, and 
the problem you have with EMP is you have people who have been 
involved in this. God bless them because they have been raising 
the alarm, they may be viewed as alarmists, maybe discounted. I 
am not necessarily saying they should, but I think that has 
been part of the problem.
    I think on the other hand, you have industry that--I do not 
blame you there is not a spec here. We are going to do what we 
think is important, and we are going to address--what are the 
high-probability threats? We have enough things to worry about 
here versus addressing these low probability threats when 
government is really not giving us any direction.
    I am not laying any blame here. I understand exactly what 
the dynamic is here. There is, I believe, a moment in time 
here.
    I like the fact that Senator Toomey, after I presented this 
to our conferences as one of my top priorities, he came up to 
me, ``Hey, Ron, I really want to work on this.''
    Senator Rounds. I have talked to Senator Inhofe and Senator 
Murkowski, Chairmen of both Senate Armed Services and the 
Senate Energy Committee. These are the committees, the 
committees of jurisdiction. Or where there is a must-pass piece 
of legislation, maybe through the National Defense 
Authorization Act (NDAA), we can actually do some of the top-
down legislation and enact it into law.
    I will use the one example when I was interviewing 
Secretary Nielsen for a position at DHS, and she talked about 
CISA. That took us too long. We were kind of holding that, and 
I thought corroborate so we could actually do the full DHS 
reauthorization. The other thing she talked about was the fact 
that we have no authority to mitigate against the malign use of 
drones. I was shocked. Are you kidding me?
    Fortunately, we had a video of an Islamic State of Iraq and 
Syria (ISIS) drone going over an Iraqi target, lowering itself, 
and then bombs away and pinpoint, destroying an Iraqi target. 
Fortunately, I had that because I could show it in a Committee 
Business Meeting, and at Senate lunch, and it got people's 
attention. Not enough to get it through the NDAA, which I tried 
to do, but finally through the Federal Aviation Administration 
(FAA) Reauthorization.
    So there are ways of doing what I think needs to be done, 
but I would love to have everybody at this table in full 
agreement of what the action items certainly are, from a top-
down approach, coming from the Federal Government, but then as 
a best practice, through industry, the bottom up.
    I just met with the local utilities, the electric co-ops. 
They obviously do not want overregulation. I do not want to 
overregulate them, but I certainly want to recognize this 
problem and utilize the Federal Government because we are the 
only entity that can really provide this kind of direction to 
create action.
    I could throw it open and say if anybody just has a burning 
desire to say something, I will let youif you want it. If you 
want to say a closing comment here, put your little name tage 
up, and you are going to get glares from your fellow panelists. 
[Laughter.]
    Chairman Johnson. But if anybody wants to say something, I 
will let you. Otherwise, do your homework assignment, and 
please work with this Committee at determining what action 
steps we should take, how can we codify it, because these 
things, we will have to enact this into law. I think we have 
some good partners, talking to Senator Murkowski, talking to 
Senator Inhofe, talking to the Ranking Members, and talking to 
Senator Peters. We have some people here that recognize this is 
an issue, and that has not always been the case. I think we can 
actually do some good work here and help you improve your 
systems and keep this Nation safe.
    So, again, thank you all for your testimony, for putting up 
with me. I look forward to working with you. It may not be vice 
versa, but let us work together and solve this problem, OK?
    This business meeting is closed.
    [Whereupon, at 4:31 p.m., the Committee meeting was 
adjourned.

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
